<html>
<title> - INTEGRATED PLANNING AND PERMITTING, PART 2: AN OPPORTUNITY FOR EPA TO PROVIDE COMMUNITIES WITH FLEXIBILITY TO MAKE SMART INVESTMENTS IN WATER QUALITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  INTEGRATED PLANNING AND PERMITTING,
               PART 2: AN OPPORTUNITY FOR EPA TO PROVIDE
                  COMMUNITIES WITH FLEXIBILITY TO MAKE
                   SMART INVESTMENTS IN WATER QUALITY

=======================================================================

                                (112-95)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE


                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-291                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                               Panel One

Hon. David J. Berger, Mayor, City of Lima, Ohio, testifying on 
  behalf of the U.S. Conference of Mayors........................    19
Hon. Ralph Becker, Mayor, City of Salt Lake City, Utah, 
  testifying on behalf of the National League of Cities..........    19
Todd Portune, Commissioner, Hamilton County, Ohio, Board of 
  Commissioners, testifying on behalf of the ``Perfect Storm'' 
  Communities Coalition..........................................    19
Walter L. Baker, P.E., Director, Division of Water Quality, Utah 
  Department of Environmental Quality, testifying on behalf of 
  the Association of Clean Water Administrators..................    19
Carter H. Strickland, Jr., Commissioner, New York City Department 
  of Environmental Protection....................................    19
George Hawkins, General Manager, District of Columbia Water and 
  Sewer Authority, testifying on behalf of the National 
  Association of Clean Water Agencies............................    19
Alan Vicory, Jr., P.E., BCEE, Principal, Stantec Consulting 
  (formerly Executive Director, Ohio River Valley Water 
  Sanitation Commission), testifying on behalf of the Water 
  Environment Federation.........................................    19

                               Panel Two

Nancy K. Stoner, Acting Assistant Administrator, Office of Water, 
  United States Environmental Protection Agency..................    49
Cynthia Giles, Assistant Administrator, Office of Enforcement and 
  Compliance Assurance, United States Environmental Protection 
  Agency.........................................................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. David J. Berger.............................................    60
Hon. Ralph Becker................................................    81
Todd Portune.....................................................    88
Walter L. Baker, P.E.............................................    94
Carter H. Strickland, Jr.........................................   101
George Hawkins...................................................   105
Alan Vicory, Jr., P.E., BCEE.....................................   111
Nancy K. Stoner..................................................   116
Cynthia Giles \1\................................................

                       SUBMISSIONS FOR THE RECORD

Hon. Timothy H. Bishop, Ranking Member, Subcommittee on Water 
  Resources and Environment, request to submit a bipartisan 
  letter dated July 12, 2012, signed by 18 Representatives, and 
  sent to Hon. John L. Mica, Chairman, Committee on 
  Transportation and Infrastructure, asking that H.R. 3145 be 
  added to the next available full committee markup..............     5
Hon. Bob Gibbs, Chairman, Subcommittee on Water Resources and 
  Environment, request to include testimony submitted on behalf 
  of Hon. Jim Ardis, Mayor, City of Peoria, Illinois, and Michael 
  F. Menke, President, Board of Trustees, Greater Peoria Sanitary 
  and Sewage Disposal District...................................    10
United States Environmental Protection Agency, response to 
  question from Hon. Donna F. Edwards, a Representative in 
  Congress from the State of Maryland............................   131

                         ADDITION TO THE RECORD

Katherine Baer, Senior Director, Clean Water and Water Supply 
  Programs, American Rivers, letter to Hon. Gibbs and Hon. 
  Bishop, July 27, 2012..........................................   134

----------
\1\ Cynthia Giles did not submit a written statement.
[GRAPHIC] [TIFF OMITTED] 75291.001

[GRAPHIC] [TIFF OMITTED] 75291.002

[GRAPHIC] [TIFF OMITTED] 75291.003

[GRAPHIC] [TIFF OMITTED] 75291.004

[GRAPHIC] [TIFF OMITTED] 75291.005

[GRAPHIC] [TIFF OMITTED] 75291.006

[GRAPHIC] [TIFF OMITTED] 75291.007

[GRAPHIC] [TIFF OMITTED] 75291.008

[GRAPHIC] [TIFF OMITTED] 75291.009

[GRAPHIC] [TIFF OMITTED] 75291.010

[GRAPHIC] [TIFF OMITTED] 75291.011

[GRAPHIC] [TIFF OMITTED] 75291.012

[GRAPHIC] [TIFF OMITTED] 75291.013

[GRAPHIC] [TIFF OMITTED] 75291.014

[GRAPHIC] [TIFF OMITTED] 75291.015

[GRAPHIC] [TIFF OMITTED] 75291.016

[GRAPHIC] [TIFF OMITTED] 75291.017

[GRAPHIC] [TIFF OMITTED] 75291.018

[GRAPHIC] [TIFF OMITTED] 75291.019



 INTEGRATED PLANNING AND PERMITTING, PART 2: AN OPPORTUNITY FOR EPA TO 
PROVIDE COMMUNITIES WITH FLEXIBILITY TO MAKE SMART INVESTMENTS IN WATER 
                                QUALITY

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. The Subcommittee on Water 
Resources and Environment of the Committee on T&I will come to 
order. Welcome. Welcome guests. This is our part 2 hearing on 
what we call integrated planning and permitting. I will open 
with my opening comments.
    Again, I would like to welcome everybody. This is an 
opportunity for the EPA to provide communities with flexibility 
to make smart investments in water quality. This is a followup 
hearing to one we held back in December on EPA's proposed 
integrated framework.
    In last December's hearing, we heard from several witnesses 
from State and local governments about how communities across 
the Nation are facing increasingly regulatory enforcement and 
financial pressures, not only to address sewer overflows and 
other aging wastewater infrastructure issues, but also to deal 
with numerous other burdensome regulatory issues that recently 
have become national priorities. These include more stringent 
and widespread regulation of stormwater discharges, nutrients 
and other pollutants in public drinking water systems which 
could lead to many communities having to install and operate, 
at great expense, treatment, removal and prevention 
technologies.
    All of these initiatives are piling on additional layers of 
regulatory requirements and economic burdens that our 
communities are having to somehow deal with. A large portion of 
these regulatory mandates are going unfunded by Federal and 
State governments with the result that many municipalities have 
made substantial increases in investments in wastewater and 
public water infrastructure in recent years. Local communities 
and ratepayers are now increasingly getting economically tapped 
out.
    In response to some of these issues, last year the EPA 
proposed an integrated planning and permitting policy that was 
intended to provide some flexibility in how communities managed 
their regulatory and enforcement mandates under the Clean Water 
Act.
    At last December's hearing, we heard from witnesses about 
the proposed policy and some of the concerns they had with it. 
These include the continued central role of enforcement 
mechanisms in the integrated planning process rather than 
through the use of permits; inadequate consideration of 
stringent municipal budgets and affordability, especially in 
setting compliance timelines; and insufficient regulatory 
flexibility to adapt to new or changed circumstances.
    Some of the witnesses also urged EPA to be more proactive 
and collaboratively assist communities through pilot 
demonstration projects to develop flexible, practical and 
affordable integrated plans.
    I believe it is time for the national clean water strategy 
to evolve from a one-size-fits-all mandate and enforcement 
approach to an integrated strategy that recognizes the 
individual public health needs and water quality benefits of 
water and wastewater utilities and the resource limitations of 
communities.
    I am pleased to see that the EPA has finalized its 
integrated regulatory planning and permitting framework, and I 
hope that the EPA is strongly committed to implementing this 
new policy. There seems to be some willingness on the part of 
the Agency to make this a planning and permitting approach that 
would largely take this out of the enforcement action realm.
    However, I still have some concerns that some at the EPA 
still may not be willing to limit the Agency's enforcement 
efforts against municipalities. A continued emphasis on an 
enforcement approach, including consent decrees, will undermine 
the flexibility that the EPA is ostensibly seeking to provide 
under this policy. Of course, it remains to be seen how this 
initiative will turn out. The devil will be in the details on 
how it is implemented.
    I would like to hear from today's State and local 
government witnesses about their thoughts on the EPA's now-
finalized policy and whether EPA has adequately addressed their 
concerns. In addition, I want to hear from the EPA witnesses 
about how specifically the Agency plans to address the 
remaining concerns voiced by our State and local witnesses.
    And I want to also hear from the EPA and the other 
witnesses what statutory or other impediments, if any, stand in 
the way of making this an effective initiative for both 
communities and the regulators.
    Hopefully this initiative will truly give our communities 
the flexibility they need to prioritize their water quality 
requirements and address the huge unfunded costs associated 
with the growing number of mandates stemming from the EPA water 
rules and enforcement actions.
    Now at this time, I yield to my ranking member, Mr. Bishop, 
for any remarks you may have.
    Mr. Bishop. Thank you very much, Mr. Chairman, for holding 
this hearing, and I say thank you to the witnesses for being 
here today.
    As everyone in this hearing room knows all too well, one of 
the fundamental goals of the Clean Water Act was and still is 
to prevent the discharge of raw sewage and other pollutants 
into the Nation's waters. Since the passage of the law almost 
40 years ago, significant investment in infrastructure has led 
to significant progress in achieving that goal. That, in turn, 
has led to significant improvements in the quality of our 
Nation's waters.
    Much of that progress is threatened now by aging wastewater 
infrastructure in need of repair and replacement and the ever-
growing challenges of stormwater runoff from streets, roofs and 
other impermeable surfaces. Faced with the staggering costs 
these upgrades will require and the difficult economic climate, 
many communities are looking to the EPA and to the Congress for 
assistance, both in terms of greater financial assistance to 
make necessary infrastructure upgrades and repairs, and for the 
flexibility to utilize comprehensive integrated planning to 
prioritize these investments.
    Both elements, increased Federal financial assistance and 
the option of appropriate flexibility through integrated 
planning, are essential to ensure continued progress in 
addressing water quality concerns.
    To that end, the EPA should be commended for the commitment 
it has made to work with States, municipalities and other 
stakeholders in developing its integrated municipal stormwater 
and wastewater planning approach. This voluntary approach, let 
me say that again, this volunteer approach, will allow 
interested communities to develop and implement effective 
integrated plans under the Clean Water Act to address storm and 
wastewater management and to benefit from the economic 
efficiencies that an integrated approach will provide while 
still achieving their human health and water quality 
objectives.
    Yet, as the EPA has noted, the full benefits of the 
integrated planning approach may not be realized for some time 
as more and more communities come forward to develop 
individualized approaches to address their unique needs.
    In my view, allowing sufficient time for this approach to 
be adopted on a case-by-case basis as communities come forward 
makes perfect sense, because if the opposite were true, and 
regulators were more interested in expediency than tailoring 
appropriate responses to address local needs, EPA and the 
States might be accused of forcing communities to accept a one-
size-fits-all approach. However, I expect that many 
stakeholders will point to the finalization of the integrated 
planning guidance as a turning point on how to effectively 
address local water quality impairments in as short of a 
timeframe as possible.
    Increasing flexibility under the Clean Water Act in the 
absence of increased infrastructure investment however, only 
addresses half of the challenge facing local communities and 
actually runs counter to the objectives of the EPA's integrated 
planning framework.
    With respect to increased and new forms of infrastructure 
financing, communities are looking to Congress to step up to 
the plate. Unfortunately, while this is the second hearing the 
committee has held on the EPA's plan to promote integrated 
planning, we have taken no action on renewing the Federal 
financial commitment to wastewater infrastructure this 
Congress. While bipartisan legislation, such as H.R. 3145, the 
Water Quality Protection and Job Creation Act of 2011, has been 
introduced, there has been no legislative action on this 
comprehensive effort.
    H.R. 3145 not only reaffirms our commitment to our 
wastewater infrastructure systems, but it also establishes new 
funding alternatives to achieve our long-term infrastructure 
goals.
    So while EPA has done its job in responding to the needs of 
our States and local communities, this Congress and this 
majority has not been as responsive and is ignoring an 
opportunity to create jobs and improve water quality. I think 
this is unfortunate, and I also think it is a disservice to our 
constituents and to our districts.
    Clean water infrastructure is not, nor should it be, a 
partisan issue. Innovative infrastructure financing such as the 
Loan Guarantee Program and Clean Water Trust Fund in my bill, 
H.R. 3145, can leverage millions in more private financing to 
address our huge backlog of water infrastructure needs and 
create tens of thousands of new jobs. At the same time, we must 
preserve the locally driven priority system developed under the 
existing Clean Water State Revolving Fund, a model that has 
served our communities, our States and our Nation well for the 
last 25 years.
    To that end, I ask unanimous consent to include in the 
record a bipartisan letter that I and 17 of our colleagues sent 
to Chairman Mica asking that H.R. 3145 be added to the next 
available full committee markup.
    Mr. Gibbs. So ordered.
    [The letter follows:]
    [GRAPHIC] [TIFF OMITTED] 75291.020
    
    [GRAPHIC] [TIFF OMITTED] 75291.021
    
    Mr. Bishop. Thank you, Mr. Chairman. This legislation has 
the support of several of the witnesses here this morning 
including the National League of Cities, the National 
Association of Clean Water Agencies and the Water Environment 
Federation, and for this support, I thank the witnesses.
    I also note with some regret that we are having a full 
committee markup tomorrow of several bills, three of which are 
water-related bills, but Chairman Mica has not included H.R. 
3145 on that list, and I do hope that at the next available 
markup, he will respond to both what many of our colleagues 
support, and what many of the stakeholders support.
    So again, I applaud the EPA for doing its part to address 
the challenges facing our States, and I urge this majority to 
do the same. With that, I look forward to hearing from our 
witnesses, and I yield back the balance of my time.
    Mr. Gibbs. The gentlelady from the District.
    Ms. Norton. I thank you, Mr. Chairman, for convening 
today's hearing on EPA's recently released integrated planning 
framework to work with the States toward providing reasonable 
flexibility and relief to jurisdictions like my own district, 
the District of Columbia, that are facing multimillion-dollar 
mandates to comply with Clean Water Act requirements.
    One of our witnesses, representing the National Association 
of Clean Water Agencies, is George Hawkins, general manager of 
the DC Water and Sewer Authority. The District of Columbia is 
currently investing in a $2.6 billion clean rivers project to 
address combined sewer overflows in the Anacostia River, Rock 
Creek and the Potomac River. The project was mandated by EPA 
and the Department of Justice through a consent decree entered 
into in 2005. DC Water is currently working with EPA to modify 
the consent decree to allow for green infrastructure to be used 
for a portion of the project.
    Mr. Hawkins, who is a wonderfully innovative manager, 
understands all the issues before us. He was formerly director 
of the DC Department of Environment. He has not been content to 
spend ratepayers' funds on 20th-century technology, but seeks 
changes in the consent decree to enable DC Water to do a pilot 
using 21st-century green technology that will substantially 
reduce the cost of mandated upgrades.
    In addition, DC Water is undergoing a nearly $1 billion 
enhanced nitrogen removal capital program to further reduce the 
amount of nutrients discharged into the Potomac River and 
Chesapeake Bay watershed. This massive undertaking will allow 
DC Water to comply with EPA's National Pollutant Discharge 
Elimination System permit.
    Since these projects are mandated and enforced by EPA, the 
District is forced to prioritize them over critical upgrades to 
the drinking water and wastewater infrastructure in the city, 
some of which was constructed during the Civil War. Recent 
incidents involving broken water mains and sewer backups 
highlight the need to maintain and improve the basic water 
infrastructure that is critical to the health and public safety 
of District of Columbia residents, Members of Congress, of the 
Federal workforce, and visitors.
    Current budgets allow DC Water to upgrade only 1 percent of 
the infrastructure this year. Although the Federal Government 
is a major user, the District of Columbia's small pool of 
approximately 130,000 ratepayers has been asked to shoulder 
most of the burden of these major capital investments. DC 
residents are projected to see their average water and sewer 
bill increase over $100 per month by the end of this decade, 
and despite the efforts of this committee, no relief in the 
form of Federal funding is in sight. As highlighted in a recent 
Brookings Institution report, the large gap between the very 
wealthy and the very poor in the District of Columbia makes 
EPA's affordability criteria based on median household income 
an inappropriate measure to gauge the impact of EPA-mandated 
projects on local ratepayers.
    I will be interested in learning from the EPA how it plans 
to use the integrated planning framework to empower its 
regional offices to consider not only the affordability of 
these mandated projects, but also the public health and water 
quality return on investment that they provide. I also hope to 
hear that the framework will allow authorities like the DC 
Water to reassess their existing consent decree and permit 
requirements to provide flexibility to ensure the most 
innovative measures such as green technology can be considered.
    I thank you and the ranking member again for this very 
important hearing, Mr. Chairman.
    Mr. Gibbs. Representative Napolitano, do you have any 
comments?
    Ms. Napolitano. Yes, Mr. Chair, I do. Thank you very much. 
We thank you, and Mr. Bishop, for holding this very important 
hearing. To me it is very critical we invest in improving our 
aging wastewater infrastructure systems and water treatment 
because it is directly supporting a clean water supply.
    As the ranking member of the Water and Power Subcommittee, 
we have held many meetings and hearings on the health of the 
great rivers and lakes in the United States. Our Nation depends 
on our downstream sources to be clean enough for drinking, for 
irrigation, and especially our economy. And as far as health 
issues are concerned that is also a very great concern.
    Investing in clean water infrastructure does create jobs. 
$1 million invested in water projects creates 12 to 16 jobs in 
southern California, according to the Economic Roundtable of 
Los Angeles. The water industry creates more jobs in southern 
California than the two leading industries in southern 
California, which are entertainment and housing. There is 
underemployment in the water industry, which indicates there is 
a great opportunity for job growth.
    I strongly support, very strongly support H.R. 3145, the 
Water Quality Protection and Job Creation Act of 2011 and 
congratulate both Ranking Members Bishop and Rahall for 
introducing H.R. 3145. It provides $13.8 billion in the Clean 
Water State Revolving Fund over the next 5 years, funding that 
is desperately needed to address the wastewater treatment 
issues facing our country.
    I commend EPA. In California, they have been great partners 
with the councils of government that I have relationships with, 
and being able to look at how this affects the small cities 
also. EPA's most recent clean water needs survey found that the 
State needs $300 billion worth of wastewater system repairs 
over the next 20 years.
    This bill also incentivizes the use of green technologies 
to reduce energy consumption. Water treatment plants have had 
the capacity for solar, wind and biothermal energy production, 
and we must invest in those opportunities and make that 
information available to all that need it or have availability 
to invest in their own upgrades. It will help solve our water 
quality challenges, and I urge the committee to bring up H.R. 
3145 to help our communities solve the clean water challenges 
they face.
    Providing a funding mechanism or assistance to some small 
cities that will never be able to afford it is a great 
opportunity for us to not only put people back to work, but to 
be able to solve some of the issues that small communities face 
in providing their residents with clean water, especially with 
regards to providing jobs and spurring the economy.
    With that, I yield back the balance of my time.
    Mr. Gibbs. Thank you. I believe that concludes all the 
opening remarks. I do have some written testimony. I ask 
unanimous consent for written testimony submitted on behalf of 
the Mayor of Peoria, Illinois, and the president of the board 
of trustees of the Greater Peoria Sanitary and Sewage Disposal 
District be included in the hearing record.
    Is there any objection? There being no objection, so 
ordered.
    [The written testimony follows:]
    [GRAPHIC] [TIFF OMITTED] 75291.022
    
    [GRAPHIC] [TIFF OMITTED] 75291.023
    
    [GRAPHIC] [TIFF OMITTED] 75291.024
    
    [GRAPHIC] [TIFF OMITTED] 75291.025
    
    [GRAPHIC] [TIFF OMITTED] 75291.026
    
    [GRAPHIC] [TIFF OMITTED] 75291.027
    
    [GRAPHIC] [TIFF OMITTED] 75291.028
    
    [GRAPHIC] [TIFF OMITTED] 75291.029
    
    [GRAPHIC] [TIFF OMITTED] 75291.030
    
    Mr. Gibbs. I also ask unanimous consent that the hearing 
record be kept open for 30 days after this hearing in order to 
accept other submissions of written testimony for the hearing 
record.
    Without objection, so ordered.
    Today we have two panels. I welcome our first panel. I will 
go quickly through it and introduce everybody quickly and then 
we will come back to the mayor.
    Our first panelist on panel one is Mayor David Berger, city 
of Lima, Ohio. He is testifying on behalf of the U.S. 
Conference of Mayors. We also have Mayor Ralph Becker, city of 
Salt Lake City, Utah, testifying on behalf of the National 
League of Cities; Mr. Todd Portune, commissioner of Hamilton 
County, Ohio, Board of County Commissioners; Mr. Walt Baker, 
director, Division of Water Quality, Utah Department of 
Environmental Quality, testifying on behalf of the Association 
of Clean Water Administrators; Mr. Carter Strickland, Jr., 
commissioner of the New York City Department of Environmental 
Protection; Mr. George Hawkins, the general manager of District 
of Columbia Water and Sewer Authority, testifying on behalf of 
the National Association of Clean Water Agencies. And I think 
we have another panelist. Go ahead.
    Mr. Vicory. My name is Alan Vicory. I am a principal in the 
firm Stantec Consulting and I am here representing the Water 
Environment Federation, WEF.
    Mr. Gibbs. OK. Glad to have you here.
    Mr. Berger, the floor is yours, and I look forward to your 
testimony.

 TESTIMONY OF HON. DAVID J. BERGER, MAYOR, CITY OF LIMA, OHIO, 
  TESTIFYING ON BEHALF OF THE U.S. CONFERENCE OF MAYORS; HON. 
 RALPH BECKER, MAYOR, CITY OF SALT LAKE CITY, UTAH, TESTIFYING 
   ON BEHALF OF THE NATIONAL LEAGUE OF CITIES; TODD PORTUNE, 
 COMMISSIONER, HAMILTON COUNTY, OHIO, BOARD OF COMMISSIONERS, 
   TESTIFYING ON BEHALF OF THE ``PERFECT STORM'' COMMUNITIES 
 COALITION; WALTER L. BAKER, P.E., DIRECTOR, DIVISION OF WATER 
 QUALITY, UTAH DEPARTMENT OF ENVIRONMENTAL QUALITY, TESTIFYING 
  ON BEHALF OF THE ASSOCIATION OF CLEAN WATER ADMINISTRATORS; 
    CARTER H. STRICKLAND, JR., COMMISSIONER, NEW YORK CITY 
DEPARTMENT OF ENVIRONMENTAL PROTECTION; GEORGE HAWKINS, GENERAL 
   MANAGER, DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY, 
TESTIFYING ON BEHALF OF THE NATIONAL ASSOCIATION OF CLEAN WATER 
AGENCIES; AND ALAN VICORY, JR., P.E., BCEE, PRINCIPAL, STANTEC 
  CONSULTING (FORMERLY EXECUTIVE DIRECTOR, OHIO RIVER VALLEY 
WATER SANITATION COMMISSION), TESTIFYING ON BEHALF OF THE WATER 
                     ENVIRONMENT FEDERATION

    Mr. Berger. Good morning. My thanks to Chairman Gibbs and 
this committee for inviting me. I am Dave Berger, and I serve 
as the mayor of the city of Lima. Though I am a life-long 
Democrat, my office is nonpartisan, and I have worked with 
elected officials of all stripes throughout my 23 years in 
office. It is in that same spirit that I am here today 
testifying on behalf of the U.S. Conference of Mayors. Lima is 
currently engaged in negotiations with EPA over a long-term 
control plan for sewer overflows, so I have personal experience 
there as well.
    As a member of the Mayors Water Council, I have 
participated in the over 2 years of discussions that led to 
EPA's integrated planning memorandum. We began those 
discussions in 2009, because cities were continuing to face 
threats of EPA enforcement and demands that cities adopt plans 
with astronomical costs far outside our financial abilities.
    After our discussions, EPA unveiled integrated planning to 
address sewer overflow and stormwater issues in a coordinated 
way. EPA acknowledges that its framework does not address all 
of the issues brought to them by the mayors and have told us 
that they are constrained by the Clean Water Act, in 
particular, from providing some of those flexibilities.
    First, I want to thank EPA for their engagement and for 
issuing the framework. The Conference recognizes that EPA put 
forward a major good faith effort to respond positively to our 
request for flexibility, and my written testimony highlights 
the positive aspects of the framework. But I would like to call 
your attention in particular to four positive aspects of the 
framework.
    First, it recognizes the need for flexibility and embraces 
both green infrastructure and adaptive management. Second, it 
recognizes that cities have limited resources and uses priority 
setting to provide partial relief. It recognizes that there 
will be disproportionate burdens on low-income households and 
allows consideration of those burdens. And finally, it 
acknowledges that in some cases integrated plans can be 
implemented in permits.
    However, the framework does not go far enough. The only 
substantive relief clearly provided by the framework is 
scheduling. It allows cities to prioritize cost-effective 
actions, but low-priority, low-benefit actions appear still to 
be mandated at a later date. The framework limits the use of 
permits for implementation with the result that, in most cases, 
EPA will continue to use enforcement tools that treat cities as 
criminals. The framework does not provide for consideration of 
safe drinking water regulations when setting priorities. And 
finally, and most importantly, the fundamental problem of 
affordability of controls is not addressed.
    On the affordability issue, let me tell you how this works 
in my community. Lima is a proud community of modest financial 
means. We have shrunk from roughly 52,000 to 38,000 as more 
affluent households have moved to the suburbs. Our annual 
household median income is $26,943--$26,943. Nearly one-third 
of Lima's citizens live under the poverty threshold. 
Additionally, our demographic profile includes aging baby 
boomers that comprise a substantial and growing class of fixed 
income seniors. Our low-, moderate-, and fixed-income 
households are particularly vulnerable to increasing costs of 
basic services.
    Implementation of the proposed CSO/SSO long-term control 
plan will raise the average annual sewer bill alone in Lima to 
$872. While this increase may have little impact on our high-
income households, its impact on our poor households will be 
devastating. Some 47 percent of the households would experience 
rates above 4 percent of their income. Almost 26 percent of 
households would experience rate increases to their annual 
sewer bills between 2 and 3 percent of their household income.
    If you add water and sewer costs together, the lowest 
income household category would be required to spend over 10 
percent of their income for water and sewer services alone. 
Indeed, 73 percent of the households in Lima would be paying 
over 2 percent of their income for water and sewer, 73 percent. 
These citizens need substantive relief that the current 
framework does not provide. According to EPA, the Clean Water 
Act ties their hands from providing more substantive relief.
    So we need Congress to act. The financial resources of our 
citizens, my citizens, resident businesses and cities are 
limited, so the Clean Water Act and the Safe Drinking Water Act 
must be crafted in a way that explicitly acknowledges and 
addresses the reality of those limited local resources.
    The Conference has five points to make about this. Congress 
must impose a cost cap on Federal clean and safe drinking water 
mandates.
    Congress should provide Federal assistance at levels much 
greater than the current State Revolving Loan Fund programs, 
and that assistance should be in the form of grants, not loans. 
Loans, frankly, don't help us much.
    It must provide a shield for cities from third-party 
lawsuits for cities that are working toward long-term 
compliance under a permit.
    Congress should direct EPA to halt enforcement campaigns 
against local governments in favor of EPA programs for 
integrated planning, watershed planning and water quality 
permitting.
    Congress must also act to prohibit EPA from exacting fines 
and penalties against local governments that are engaged in 
good faith efforts and are investing capital to comply with 
water and wastewater regulations under permits.
    Cities are not criminals or enterprises that are tempted to 
pollute more to make more profit and we should not be treated 
as such. Cities are stewards of the public trust, a 
responsibility that we share with the State and Federal 
Governments, and should be accorded the respect of a shared 
stewardship of our environment.
    We need Congress to provide relief. We need Congress to 
provide oversight and to remember that EPA has its authority 
because of the way the Clean Water Act was written and enacted 
by Congress. We need Congress to act.
    Thank you for the opportunity to address you.
    Mr. Gibbs. Thank you.
    Mayor Becker, the floor is yours. Welcome.
    Mr. Becker. Good morning, Chairman Gibbs, Ranking Member 
Bishop and members of the subcommittee. I am Ralph Becker. I am 
the mayor of Salt Lake City, and I am here today on behalf of 
the National League of Cities, the oldest and largest 
organization representing cities and towns across America. I 
also serve on the U.S. Conference of Mayors Board of Directors.
    Salt Lake City is unusual in that from our valley at about 
4,200 feet and where the Great Salt Lake is, we see our peaks 
over 11,000 feet immediately next to us. And so from our 
watershed that is supplying our waters to our ultimate 
discharge in the Terminal Lake, we have the full spectrum of 
water supply and dealing with wastewater and stormwater.
    I appreciate the opportunity to share our perspective on 
the important role of clean water infrastructure investment in 
our communities and how the U.S. Environmental Protection 
Agency and Congress can partner more effectively with our local 
governments to make smart investments to protect water quality. 
On this, the 40th anniversary that we are approaching of the 
Clean Water Act and the enormous benefits that we have all 
received in our country from that Act, it is time for this 
Congress to take a fresh look at how we can achieve those goals 
better.
    We congratulate and applaud EPA's integrated stormwater-
wastewater planning framework published on June 5th of this 
year. The framework recognizes awareness of struggles by 
municipalities in meeting requirements and the conflicts that 
arise when weighing environmental impacts. Storm and wastewater 
issues are interdependent and intrinsically tied to 
environmental considerations.
    We are in support of the current framework's benefits, but 
as was mentioned by Mayor Berger, we feel strongly that 
affordability, flexibility and use of permitting in place of 
consent decrees, better solutions will be found.
    Speaking towards affordability, water rate and tax 
increases on residents to fund regulatory mandates should be 
reasonably affordable. Affordability needs to be assessed based 
on impacts to the lowest community economic level, and the 
integrated planning framework that provides communities with 
compliance schedules with options to prioritize funding for 
projects with greater positive impacts are certainly very 
valuable. This approach allows a community to produce a viable 
plan from several options to afford the greatest environmental 
benefit.
    To flexibility, a flexible approach to integrated planning 
would allow communities to prioritize needs and consider in its 
entirety the financial commitments that we make. We recommend 
the ability to extend the permit cycles to longer timeframes to 
align with realistic and achievable goals of water quality 
improvements. We believe that an integrated framework, now 
limited to consideration of storm and wastewater, should 
include pending drinking water treatment requirements under the 
Safe Drinking Water Act. For Salt Lake City and many cities, 
all of these systems are integrated and tied to a much broader 
set of environmental considerations.
    As has been mentioned and I mentioned, the implementation 
of an integrated planning framework can most effectively and 
efficiently be achieved through the permit planning process 
rather than consent decrees.
    Moving forward, addressing the policy changes is just one 
part of the equation in addressing our Nation's water-related 
challenges. Lack of water quality infrastructure threatens 
local and regional economies, the environment, and public 
health and safety. Like other communities, 70 percent of Salt 
Lake City's water infrastructure is beyond expected design life 
and in need of substantial funding. We have made tremendous 
commitments for well over a century to that end.
    We call on your support for new funding mechanisms. Even as 
local governments fund 95 to 98 percent of all water and 
wastewater infrastructure investment, needs in our communities 
continue to grow. The most recent clean water shed needs survey 
estimated that the 20-year investment needed to upgrade 
wastewater and stormwater infrastructure to meet the goals of 
the Clean Water Act to be over $298 billion, with an additional 
survey focused on drinking water infrastructure estimating 
needs over a 20-year span in excess of $334 billion. Local 
governments need a reliable long-term source of substantial 
capital to close the gap between current expenditures and 
anticipated needs.
    The U.S. marked the 20th century with breakthrough in 
investment in water infrastructure that lifted us to prominence 
for the past 100 years. We ask that you lead and serve by 
addressing these needs so we can move forward together and lead 
the world into the next century.
    As we approach the 40th anniversary of the Clean Water Act, 
local governments remain committed to meeting the water 
infrastructure needs and water quality protection standards in 
our communities. We hope that the Federal Government remains 
committed to being a full partner in this important endeavor. 
Because the Nation's cities are working to improve our aging 
infrastructure, meet Federal regulatory requirements, create 
and retain jobs and foster a climate of economic growth in our 
communities, a partnership with the Federal Government is 
essential.
    We look forward to working with you on a long-term solution 
to our Nation's water infrastructure needs and with EPA to 
ensure that this integrated planning framework approach can 
help communities meet water quality protection standards in an 
affordable and flexible manner.
    Thank you for the opportunity to speak on behalf of 
America's cities and towns. I look forward to your questions.
    Mr. Gibbs. Thank you.
    Mr. Portune, the floor is yours. Welcome.
    Mr. Portune. Good morning, Chairman Gibbs, Ranking Member 
Bishop and members of the subcommittee. My name is Todd 
Portune, and I am testifying here today on behalf of the 
citizens of Hamilton County and the citizens of the communities 
that make up what we have called the ``Perfect Storm'' 
Communities Coalition, so named because we are communities 
dealing with the perfect storm of high unemployment, high home 
foreclosure rates, stagnant economic growth and an exodus of 
business and industry, while being mandated to meet expensive 
CSO and SSO wet weather consent decrees and stormwater 
regulations.
    Our coalition very much appreciates the subcommittee 
holding this second oversight hearing. It is certainly evidence 
of and supports the fact of the need for congressional action 
and oversight over EPA and the integrated planning process that 
EPA has put forward through their final integrated planning and 
permitting policy framework.
    We are grateful for the steps forward that EPA has taken, 
but believe that it falls far short of what is necessary. We 
believe that EPA must find a regulatory approach consistent 
within the Clean Water Act and existing regulations that would 
provide communities like mine and of our coalition the 
flexibility we need to meet these challenges in a more 
affordable and cost-effective manner, and we hope that the 
Agency's final framework with your oversight and with 
congressional action will help us accomplish this goal.
    Mr. Chairman, Ranking Member, and members of the committee, 
we were very encouraged at the first oversight hearing when 
there was interaction between Chairman Gibbs and Ms. Nancy 
Stoner, Acting Administrator for the EPA Office of Water, about 
whether EPA was open to using a pilot community project, and in 
particular, the 15- to 20-pilot communities in implementing the 
framework that was proposed by our coalition.
    Ms. Stoner answered in response to your question, ``Yes, 
that is what I was talking about in terms of those who have 
already done a lot of thinking and planning. We are hoping 
those could be initial pilots for us, and others could learn 
from their successes.''
    She went on to say, ``Our strategies that we are working on 
now would identify how we would like to work with communities 
through pilot projects and other means as well.''
    Finally, Mr. Chairman you asked if EPA would have something 
moving forward by spring, to which she replied, yes.
    Now, clearly, there is a step forward with the framework 
that has been presented. But with respect to showcase 
communities, while EPA will say that they have a showcase 
community aspect of this, the truth of the matter is that it is 
not a true demonstration program or showcase community process. 
Contrary to that, it is continuing the long-time practice of 
negotiating judicial decrees and leaving individual communities 
to figure it out by themselves.
    Under EPA's integrated policy and the most recent green 
infrastructure fact sheets, all of the financial burden and 
legal risk involved in developing an alternative framework 
remains on local communities. Communities are given the choice 
of pursuing alternative approaches without direct financial, 
technical or related support from EPA.
    If a local community has access to money and expertise and 
they get it right, EPA will embrace them. If, however, they get 
it wrong, EPA and the DOJ will leave them subject to continued 
enforcement to figure it out a second time. And this system of 
forced local experiments without Federal funding is wasteful 
and inequitable. We know there is a better way, a way that does 
not ignore the mandates of the Clean Water Act, but does not 
continue the command and control regulatory system that is 
inconsistent with the financial realities of America's cities, 
towns and counties.
    Our coalition has repeatedly requested that EPA establish 
between 15 and 20 demonstration partnerships in each of the 
next 5 years in communities across the Nation currently facing 
expensive mandated wet-weather improvements. We want to see 
these partnerships transparently highlighted to show the 
Congress and other communities how EPA and local communities 
can work together to implement flexible, practical, affordable 
wet-weather solutions. And by working with pilot communities, 
EPA could demonstrate how the use of new innovative approaches 
can result in the same or better water quality results for 
smaller investment of local taxpayer dollars.
    Under our proposal, the coalition's proposal, EPA would be 
leading the process, working in partnership with local 
communities, lending EPA's own significant body of resources 
and expertise to the effort. The end product will be the 
development of the foundational data and results that then can 
be replicated across the Nation with confidence of outcome and 
result. Anything less continues the current, unacceptable 
process of fragmented, uncoordinated and differing approaches 
and outcomes. There is a better approach, and that is for a 
national policy to be implemented, and the coalition's process 
is the way.
    I would like to address the affordability question as well, 
Mr. Chairman. In my own community, we have cut our county 
budget by over 35 percent since 2007. Because of the recession, 
we have been forced to reduce our budget for all operations of 
the county, corrections, courts, law enforcement, public works 
projects of road, highway and bridge repairs; auditor, 
recorder, treasurer, coroner, all the other facets of county 
government have been cut by over $100 million in 5 years, 
eliminating over 1,500 jobs in the process. We can neither 
borrow money nor print money to balance our budget. We can only 
spend what we have, and consequentially, we have had to make 
due with less, with no end in sight.
    Yet in the midst of this horror story, CSO and SSO mandated 
driven sewer district spending continues to increase. Since the 
recession began, our bipartisan county commission has been 
forced to increase sewer rates by over 50 percent. Our sewer 
district, now facing hundreds of millions of dollars of consent 
decree mandated spending, projects another 18 percent in rate 
increases over the next 2 years.
    Since 2004, when our decree was approved by the Federal 
court, sewer rates have been increased 9 consecutive years 
cumulatively by more than 130 percent. Few, if any, people have 
their incomes increase by 10 percent a year or double every 
decade.
    We are spending for the entire 2012 budget for all of 
Hamilton County $207 million, but our sewer district budget is 
$380 million; $202 million in consent decree driven capital 
projects and $180 million in operations, $90 million of which 
is payment on debt service. We have spent over $400 million in 
consent decree mandated work so far. We have another $1.1 
billion in 2006 dollars in phase one spending with a phase two 
consent decree program estimated to cost another $2 billion or 
more.
    There is no balance in this, Mr. Chairman. There is no 
fairness. And my constituents rightfully ask why are they 
paying more for sewer repairs each year than I raise from all 
of the revenue sources for all other county operations. How do 
I justify raising sewer rates to unaffordable levels at the 
very same time I cannot provide for police patrols, am closing 
down jails, cannot fix my roads and bridges, have endured 50 
percent cuts in human service delivery at the same time that I 
have a 40-percent increase in demand for human services. Help. 
We are all in favor of clean water, but there must be balance 
to the process.
    The current EPA regulatory policies and enforcement-led 
approaches through consent decree simply directs local 
communities to pay for massive, expensive, and in some 
instances, outdated concrete and steel approaches. There has 
got to be a better way.
    Hamilton County, Ohio, and the Perfect Storm Coalition 
looks forward to continuing to work with you, Mr. Chairman, 
with members of the subcommittee, and with EPA in developing 
and ensuring the implementation of innovative flexible 
approaches in meeting wet weather challenges, including the 
creation of needed demonstration communities that will showcase 
EPA's commitment to cost-effective, alternative approaches to 
expensive water quality challenges faced by communities like 
mine and those of our coalition.
    I thank you for the opportunity and look forward to 
answering the committee's questions.
    Mr. Gibbs. Thank you.
    Mr. Baker, welcome. The floor is yours.
    Mr. Baker. Good morning, Chairman Gibbs, Ranking Member 
Bishop, and members of the subcommittee. My name is Walt Baker. 
I am the director of the Utah Division of Water Quality and 
currently serve as the president of the Association of Clean 
Water Administrators on whose behalf I offer testimony today. 
ACWA is the national nonpartisan professional organization 
representing State, interstate and territorial water quality 
officials charged with implementing the Clean Water Act, and in 
particular, the National Pollutant Discharge Elimination System 
permitting program.
    I am pleased to come before the committee today to again 
present testimony on the integrated planning initiative. I 
offer abbreviated remarks drawn from my longer written 
testimony which has been submitted for the record.
    I reiterate the Association's support for sequencing Clean 
Water Act requirements to allow municipalities to address first 
those projects that have the greatest impact on water quality. 
Such sequencing is not a new concept. However, a wider embrace 
of sequencing is important in these times of economic hardship. 
Moreover, EPA's willingness to develop this initiative sends a 
powerful, clear and welcome message to municipalities, but we 
need to do more.
    Following the release of the draft framework in January of 
this year, ACWA members participated in five EPA-hosted 
stakeholder workshops, submitted written comments on the draft 
and held calls with EPA to further discuss the draft document. 
EPA has been very receptive to State comments and questions.
    At the workshop, several elements of integrated planning 
were clarified. Integrated planning does not remove the 
obligation to comply with the Clean Water Act nor the 
consequences of not complying with the Clean Water Act. Clear, 
candid and open communication with communities is critical to 
ensure there is a full exploration of the options and 
flexibilities within the Clean Water Act so that the parties 
understand what is doable and what is not doable.
    If communities are looking for amnesty from Clean Water Act 
provisions through this initiative, they are likely to be 
disappointed. But some uncertainty remains. Third-party 
lawsuits loom if States and EPA through integrated planning are 
considered to be deviating from their obligations to enforce 
the law. It is clear that States will take the primary role in 
reviewing and approving a municipality's integrated plans. 
EPA's involvement in approving or vetoing the plans is less 
clear.
    I would like to offer the following additional thoughts on 
EPA's final integrated planning framework and initiative as a 
whole. One, we urge EPA to further develop guidance on 
financial assessment and affordability as cost will play a 
central role in the prioritization effort.
    Two, we are pleased to see an adaptive management component 
in the final framework. Flexibility will be key to 
implementation.
    Three, drinking water and groundwater elements should find 
a place within the integrated planning framework.
    Four, confusion seems to exist in some EPA regions as to 
the ability of compliance schedules within NPDES permits to 
exceed 3 years, let alone the 5-year life of the permit. This 
issue needs to be resolved by EPA headquarters.
    Overall, States have largely been supportive throughout the 
development of EPA's integrated planning framework and remain 
supportive of the general concept of allowing municipalities to 
sequence Clean Water Act requirements in ways most appropriate 
for the specific entity. However, some of our concerns will not 
be put to rest until we see actual case studies progress.
    We encourage EPA to consider developing guiding principles 
based on early examples to assist others.
    Utah lost one of its native sons last week in the passing 
of noted author, educator, businessman, and motivational 
speaker Stephen R. Covey who wrote, ``The main thing is to keep 
the main thing the main thing.'' Our main thing must be to 
protect our precious and irreplaceable water resources. ACWA 
believes it is possible to do so with an eye to well thought-
out approaches, mutually agreeable priorities, fiscal 
responsibility and reasonable timeframes.
    I would like to conclude by noting that the success of 
integrated planning hinges on the continued transparency, 
communication and collaboration among all involved parties 
throughout the plan development and implementation process. We 
look forward to continuing our work with EPA as this initiative 
proceeds.
    Thank you for this opportunity to share ACWA's thoughts on 
this, and I will take any questions later.
    Mr. Gibbs. Thank you.
    Mr. Strickland, welcome. The floor is yours.
    Mr. Strickland. Thank you, and good morning, Chairman 
Gibbs, Ranking Member Bishop, members of the subcommittee. I am 
Carter Strickland, commissioner of the New York City Department 
of Environmental Protection, or as we are known in New York 
City, DEP. On behalf of Mayor Michael Bloomberg, thank you for 
the opportunity to testify on the U.S. Environmental Protection 
Agency's final integrated planning framework, which I might say 
at the outset is a very welcome development. We were involved 
in providing testimony and development of this integrated 
planning framework, and we do note that the EPA has amended it 
to some degree.
    We appreciate several clarifications. One involves the role 
of the States. It is very important to us. For example, our 
water quality data shows that our biggest challenge, like a lot 
of other cities, is combined sewer overflows. We recently, in 
mid-March of this year, entered into a consent order with our 
State, our primary regulator, by which we are committing an 
additional $1.9 billion in traditional grant infrastructure and 
$2.4 billion in green infrastructure.
    We think this is the right way to go. We think it is in 
accordance with some planning efforts that we did initially. 
And we are obligated under both orders and SPDES permits to 
undertake a variety of measures with regard to both CSOs, 
including the development of long-term control plans over the 
next 5 years, 11 separate ones, and such measures as the 
cleaning of our 136 miles of interceptors, which we just 
completed after a 2-year effort.
    Clearly, for the framework to succeed it needs to recognize 
and where appropriate, defer to State authorities which are 
often the primary regulators. I will note that we believe that 
long-term control plans are, in fact, integrated plans and can 
become them, and new requirements should be held in abeyance 
until those plans are developed.
    We also appreciate the framework's explicit reference to in 
the final version and encouragement of the use of planning for 
sustainability and other related documents and guidance put out 
by the EPA. These documents provide suggestions for 
programmatic areas and approaches that also match community 
goals while appropriately recognizing that the details of these 
programs cannot be known in advance or dictated from any 
central authority, but rather, must be developed by the 
operating entity.
    DEP supports the planning approach that would help 
municipalities prioritize infrastructure investments in order 
to maximize water quality benefits and encourage the use of 
innovative and sustainable approaches such as green 
infrastructure. That, after all, is the approach of not only 
the long-term control plans, but planning documents such as New 
York City's PlaNYC, or comprehensive sustainability plan.
    A number of our comments and recommendations on the draft 
framework have been addressed and are consistent with the final 
framework, but since the level of detail in the framework has 
not changed dramatically since the draft version, our initial 
questions regarding the specifics of how integrated planning 
would be implemented remain unanswered and we think it is 
certainly a matter that the subcommittee should continue to 
monitor.
    For example and first, I will note that the final framework 
for the integrated plan includes a discussion of financial 
capability and refers to the EPA's 1997 guidance document. 
However, New York City DEP has concluded our own affordability 
assessment and we have come to realize that the criteria 
outlined in the guidance documents do not provide the complete 
story with respect to affordability concerns of both the Agency 
and our ratepayers.
    For example, we found that the use of median household 
income as an affordability indicator has several limitations 
for a city like New York City where household incomes are not 
distributed around the median. That means that we have a lot of 
wealthy people and we have a lot of poor people. Approximately 
20 percent using Federal measures of our population is living 
below the Federal poverty level, which is very low.
    Furthermore, the New York City Center For Economic 
Opportunity has noted some of the deficiencies with current 
measures of poverty and developed an alternative poverty 
threshold measure based on methodology from the National 
Academy of Sciences. Based on this new threshold, a higher 
percentage of New York City residents are living in poverty 
than the Federal poverty rate portrays. Our study estimates 25 
percent of New York City households, that is 755,000 
households, over 1.6 million people, have wastewater and sewer 
costs that are 2 percent or more of their household income.
    These rates vary across the city. In the Bronx, for 
example, 40 percent of households have a household income for 
which 2 percent or more is dedicated to water or wastewater 
costs. With projected future rate increases, the burden on this 
vulnerable population will increase, and we believe this is a 
significant environmental justice issue for this subcommittee 
to consider.
    Therefore our study recommends that residential 
affordability should consider income distribution, poverty, 
unemployment and other economic burdens, such as the high cost 
of living in New York City and other urban areas, all of which 
inform the environmental justice issues that the Federal 
Government is rightly concerned about.
    And affordability must consider the cumulative impact of 
long-term debt, which means that utilities have rising debt 
service that will cause rates to increase for the foreseeable 
future. For example, this year, New York City DEP will spend 42 
percent of our operating budget, that is $1.6 billion, on debt 
service alone. We have $26 billion in outstanding debt. That 
debt service has increased 176 percent between fiscal year 
2002, it starts for us in July, and fiscal year 2011. Each 
community is unique, obviously, so the framework should provide 
an opportunity to bring all relevant financial indicators and 
information to the table.
    EPA has clarified that the integrated planning framework is 
limited to wastewater and stormwater. Many folks have mentioned 
that should include the Safe Drinking Water Act obligations. We 
believe that is the case. Over the last 10 years, we have spent 
$20 billion total on capital costs, pretty evenly split between 
water and wastewater costs. All of that, so $10 billion each. 
We don't want to exclude $10 billion from consideration that we 
spent on water services. That goes into our rate and that is 
paid by our ratepayers.
    In addition, the framework seeks to balance various 
mandates without recognizing the value of investment in 
nonmandated infrastructure. These are the replacement costs of 
our aging infrastructure that many folks have mentioned. New 
Yorkers want and deserve nonmandated, but still critical 
investments in programs to build storm sewers, replace storm 
and sanitary lines, replace mandated equipment according to a 
prudent, asset management review. And I think if you did a 
survey of the folks at this table and utilities across the 
country, the number one issue would be urban flooding, for 
which we spend a lot of money. Completing the full buildout of 
the storm and sanitary sewer system is an important priority 
for our city and others.
    Finally, the EPA's and Department of Justice's enforcement 
actions must be consistent with this framework, especially its 
consideration of State orders and permits, as well as the 
general principle that the details of programs will be left to 
operating agencies. Unfortunately, over the past few years the 
EPA and DOJ have been bypassing the permit process and 
regulating by consent order with provisions that have a 
stifling level of detail. The Federal Government is not in the 
business of operating utilities, not yet anyway, and 
municipalities need the ability to make operational decisions 
based on engineering judgments.
    In closing, we see integrated planning as a way for EPA, 
State regulators and municipalities to sit down and prioritize 
various water quality efforts so that there will be less top-
down decisionmaking, more collaboration and consensus among 
government agencies, for which we consider ourselves a member. 
This would vest discretion in local governments to invest 
scarce dollars in those projects that meet critical needs and 
achieve the greatest public health benefits. The EPA's 
framework is a good start, but it is far from sufficient to 
realize this vision.
    Thank you for the opportunity to testify.
    Mr. Gibbs. Mr. Hawkins. Welcome. The floor is yours.
    Mr. Hawkins. Good morning, Chairman Gibbs, Ranking Member 
Bishop. My name is George Hawkins. I am the general manager of 
the DC Water and Sewer Authority, or DC Water as we know it, 
and the chair of the Money Matters Task Force for the National 
Association of Clean Water Agencies.
    I am delighted to be here today to discuss EPA's integrated 
and municipal stormwater and wastewater planning approach 
framework. It is a very good step forward. I also want to 
mention, I am grateful for the comments of Congresswoman 
Norton, my Congresswoman. I thought it was both eloquent and 
substantive, and many of my points will track many of the 
points that you made.
    I also want to offer my greetings to Congresswoman Edwards. 
Part of the flow from your district actually comes through to 
our facility at Blue Plains. You have been a strong supporter 
over time, and I am grateful for that as well.
    My points are going to be in five, a handful of points, 
number one to provide context, very consistent with what you 
just heard from my friend, Carter Strickland.
    In the last 2 weeks we have had three floods in the 
Bloomingdale neighborhood of Washington, DC. This is a 
neighborhood just south of the McMillan Reservoir just west of 
here, three significant floods in 2 weeks.
    I have been out to the citizens, I have walked the streets. 
We have mobilized all of our resources. The fundamental problem 
is the trunk sewer that serves that entire neighborhood goes 
entirely the length of Florida Avenue all the way down to the 
Anacostia, was implemented and constructed by the Federal 
Government at the turn of the century, as well as all the lines 
that feed into it. They simply are not big enough to contain 
the flow that is going into the system which is handling both 
stormwater and wastewater.
    The hydraulic pressure of all of the flow and the kinds of 
storms we have had is so great, it is popping off the manholes 
shooting them into the air so that we have to bolt them down, 
or else they will shoot and can hurt someone and shooting water 
3 to 4 feet in the air coming out of the system, flooding into 
basements. If we bolt the manholes on top of those pipes, the 
hydraulic pressure in the pipe, that flow has to go somewhere, 
and it causes sewage backups to go back up the pipes to 
businesses and residences.
    Now I have stood in front of the citizens, they are angry 
about this for understandable reasons. We have a solution to 
this problem, and it costs $600 million. You cannot replace one 
little piece of the sewer line anywhere, because it would 
connect to the next line, which would be too narrow. It is like 
trying to expand traffic on the beltway by doing a 200-yard 
addition to the road, then it would hit the next choke point 
and be backed up.
    We have to replace the whole system. It is that kind of 
replacement that is fundamental to the public health, welfare 
and every job in the District, but is not mandated, and it is 
what every system in this country, most of which were built 
when we urbanized America, at least in the Midwest and the east 
coast at the same time this bill is coming due nationwide. But 
that is the context. What our customers want is the system to 
work. That is what delivers every job in every house.
    Second, in comparison to that is the mandates we face. 
Congresswoman Norton had summarized them, I will just be brief, 
one is a $2.6 billion project to build mammoth underground 
tunnels larger than Metro tunnels, which all of you have been 
on, in a gigantic system underground that would take much of 
this flow and transport it down to Blue Plains. We are deep 
into building that project now. It is the largest public 
project in Washington, DC, since Metro underneath our feet.
    A second billion-dollar project to Blue Plains would 
enhance nutrient removal. The District is the only jurisdiction 
in the entire Chesapeake Bay that met the 2000-2010 goals for 
Chesapeake Bay reductions, but that has been because of 
expenditures made at Blue Plains, which is a regional 
expenditure, which is why the support from both Maryland and 
Virginia is important. That is a billion-dollar project.
    Those two projects alone is $3.6 billion of expenditures 
that are mandated. That does not talk about the MS-4, the 
separate storm sewer obligations that are coming, TMDL 
requirements and perhaps, although this is a challenge of what 
is going to be the requirement for every one of those sewer 
lines that go directly to the river, not to our plant, which 
needs to be done.
    Third is the reality of decreasing returns at the scale. 
The way the Clean Water Act is set up, to me one of the most 
successful progressive statutes in the history of government, 
nonetheless, has run into the reality of decreasing returns. 
The law is about eliminating pollutants, the National Pollutant 
Discharge Elimination System is how the permit system is 
identified.
    However, eliminating means that as you eliminate and you 
get to the margin, your costs become logarithmic and start 
firing up the scale for that next incremental improvement. It 
costs $15 to remove a pound of nutrient when we began at Blue 
Plains. Today it costs us $476 per pound of nutrient to 
eliminate nutrients at Blue Plains, and reducing much less for 
the costs.
    So we spent $1 billion to get one-tenth of the protection 
of what we had spent $100 million to do in the past, and that 
is only going to get more expensive at the margin.
    Fourth point is affordability. We are doubling the 
percentage of the low-income residents of the District who are 
unable to pay their bills or stressed by paying their bills due 
to the costs. Now the median household income disguises that 
reality, because as we all know, Washington, DC, is a city of 
two income levels: one that is quite high and one that is quite 
low.
    If you take the median income to evaluate the cost of 
something, you are going to understate what that cost is to 
someone of significant means, and overstate the ability of our 
low-income residents to pay the same costs. When EPA evaluated 
the per capita costs of capital improvements in the country, 
the District of Columbia came up with the highest per capita 
costs.
    We have a very large region. It is important to remember we 
have 130,000 connections in the District. It is not a big city 
itself, and it is those connections that are paying these 
gigantic costs.
    Affordability, I do personally every public outreach 
meeting in the city that we do on our retail rates. I went to 
every ward in the city this spring describing the rates that we 
propose for 2013, which will equal a 50-percent rate increase 
in the 4 years I have been connected to DC Water as general 
manager.
    In two of those meetings, we had to have law enforcement 
called because our citizens were angry. They are angry for two 
reasons: One is they are angry about the cost, the simple 
escalation, even if it seems that it is a good value relative 
to other costs, well, it costs less than a cell phone bill, it 
costs less than a power bill.
    When you have a budget that has been set over time and you 
have designated a portion of that budget to a cost, and that 
one is increasing far faster than inflation, it doesn't matter 
what it costs compared to other things, you have your budget 
when you are on a fixed income, and that budget is being 
exceeded by too many of our residents.
    The other challenge our residents tell us is what about 
those water mains. What about the challenges of the day-to-day 
delivery, and part of our challenge is our funding first goes 
to mandates, and second, to the operational needs.
    I want to point out as a point of fact, in Washington, DC, 
if you take every capital dollar spent in the District for 
District work, school, fire, police, every building, road and 
bridges, $1 in $3, one of every three capital dollars, is spent 
on DC Water projects. That is the scale of what the system is 
delivering.
    In that context, my last thoughts is about the integrated 
plan. It is a very important step forward. We are negotiating 
in the District, as the Congresswoman mentioned, the potential 
opening of our consent decree to allow for green 
infrastructure. There is no question with the leadership of 
Cynthia Giles and Nancy Stoner, and the Regional Administrator 
Shawn Garvin for region 3, we have seen a sea change in the 
negotiations we are undertaking with the Agency in order to 
open that consent decree.
    This is a good change, integrated planning is good, 
although I echo many of the comments you have already heard and 
don't need to repeat them, our ratepayers, many of you, get a 
bill that has water and sewer costs on it, not divided out. So 
the full range of costs is what our ratepayers face.
    But three very specific points: Number one, in order to 
negotiate the opening of our consent decree, I have already 
spent $2 million in the preparation and the analysis and the 
background work necessary to get to the negotiating table. That 
is a very difficult dollar figure to cover, and I will be in 
trouble with my board if we don't actually succeed.
    But there are many jurisdictions that do not have the 
capability even to get to the negotiating table because of the 
level of research and analysis that is necessary to evaluate 
and compare, and to assess all these various programs and 
requirements and put them in a risk-based system. That is a 
detail-intensive and research-intensive effort.
    So one issue I think is very significant and I know funding 
is extremely very difficult, is pilot funding for those 
jurisdictions, particularly with financial limitations, to 
avail themselves of the ability to even get to the negotiating 
table.
    Second is the benefit of permits. Permits last for 5 years, 
consent decrees go for 20 to 25 years. There is no question 
that the consent decree enables a longer period of time, but 
these are in a context that it is a far more rigid negotiation 
because it is within a violation and an enforcement context.
    Expanding the use of permitting compliance schedules beyond 
a 3- or 5-year span to match what you could do in an 
enforcement context would enable far more flexibility in this 
concept, and third is to go back to affordability. The 
affordability challenge to the people who are footing the bill 
is very significant, and we think that the 2 percent is--I am 
not even sure where it comes from, but I am not sure it is 
relevant in assessing the affordability of these kinds of 
changes.
    I do want to emphasize that the integrated planning 
framework is a very strong step in the right direction, and we 
have seen a much better negotiating climate with EPA today, but 
it is expensive and time consuming in order to get to the 
table, and I think many communities need assistance on that 
score. Thank you very much.
    Mr. Gibbs. I can tell you are on the frontlines, your 
passion.
    Mr. Vicory, welcome and the floor is yours.
    Mr. Vicory. Thank you very much. Good morning, Chairman 
Gibbs, and subcommittee members.
    George Hawkins is always a hard act to follow, obviously, 
and I am pleased actually in my comments to fundamentally 
reiterate a lot of the testimony that you have heard here this 
morning. Actually, my function within WEF is I am currently 
vice chairman of the Government Affairs Committee, and I need 
to note that this past January, I wrapped up a 24-year career 
as executive director and chief engineer of the Ohio River 
Valley Water Sanitation Commission, ORSANCO, an interstate 
compact agency to abate interstate water pollution in the Ohio 
Valley.
    But on behalf of WEF's 36,000 individual professionals 
working in water quality, we are certainly pleased to be here 
this morning. The local governments, and I think in your 
opening comments, and I think you have acknowledged this, have 
made tremendous investments to improve water quality and 
achieve Clean Water Act compliance over the last 40 years, and 
there has been remarkable success.
    This is about an essential public service that is 
fundamental, as we all know, to public health and maintaining 
our quality of life, but we are all struggling in this economy, 
and as such, it is imperative that local governments invest 
their limited resources wisely to achieve the most significant 
environmental and public health benefits.
    And that is what this framework, we believe, seems to speak 
to, and we are very supportive of it. We have been engaged with 
EPA throughout the development of the framework, and we 
considered it a much-needed first step to provide greater 
flexibility to local governments to balance the need for 
investments in asset management and aging infrastructure with 
other water-related requirements at a pace that is sustainable 
and affordable. Again, themes you have heard already this 
morning.
    Common sense works. This seems to be common sense. Planning 
this locally driven, flexible and voluntary is, we believe, the 
way to go, and an approach that encourages innovation, such as 
green infrastructure, obviously is really where the future 
needs to be.
    But as we have heard in several testimonies this morning, 
we have a policy, we really don't have implementation, and 
there are a lot of questions about that.
    WEF offers six main thought points, if you will, on 
implementation. Regarding adaptive management flexible longer-
term schedules, we did recommend, WEF recommended that adaptive 
management principles be incorporated in the framework. We have 
that. We need to assure that it is actually implemented, and 
that is implemented through allowing permits, and to the extent 
we have enforcement of those on the books to be reopened. If 
circumstances or technologies change to provide the opportunity 
to identify, evaluate and select new projects, incorporate 
innovative solutions and make changes to ongoing projects and 
implementation schedules.
    Technology is moving like I have never seen it in my 
lifetime, so we need to find ways to get these emerging 
technologies out on the street to the benefit of all of us. 
Supporting States and making the integrated planning process 
available to all is an important thing. There are obstacles 
within EPA's policy. The Agency needs to zero in on those and 
address them to free up this new approach that we are all 
supporting here this morning.
    We need to assure that utilities are not turned away that 
want to pursue this. George spoke quite well to the resources 
he has to deal with things. A lot of communities do not have 
the resources they have. And, really, this speaks to the idea 
of some level of reasonable funding to prompt and stimulate, if 
you will, the implementation of these approaches and to 
demonstrate that the principles here indeed work, and then I 
think you will see a lot more communities jumping forward, if 
you will, and wanting to go with the integrated planning 
approach.
    We have heard a lot also about enforcement versus 
permitting. We are very clear, I believe, as an association, a 
federation, that regulators need to use their discretion to 
utilize a nonjudicial implementation approach. Permits provide 
the flexibility. We can write over the permit renewal process, 
long-term plans in those permits and, again, enforcement really 
needs to be the last resort.
    Imposition of fines and penalties, if we cannot eliminate 
them, we need to minimize them. The reality is that enforcement 
creates a counterproductive stigma at a time when local 
governments need public support to raise the rates in order to 
do what they need to do.
    And the importance, I think, spoken by the Mayor of Lima, 
that local governments need to be treated as partners, almost 
as clients, if you will, versus polluters, if you will, or 
even, as I have heard early this morning, criminals.
    We would agree the permit does not--excuse me, the 
integrated planning process does not go far enough to address 
the affordability issue facing local governments. We certainly 
want to confirm that thought. And the need to consider, for EPA 
to consider other economic indicators other than the 2 percent 
median household income. I think you have heard here this 
morning that that analysis approach really is not truly the 
right economic analysis approach for lower income communities.
    You know, at the end of the day, this is about moving an 
environmental needle. Water quality improvements must be the 
gauge of success, not necessarily a reduction of flow volume, 
this is about are we achieving environmental improvements, are 
we moving that needle, and that is really the cost-benefit 
approach that we need to pursue, and I think that the 
integrated planning process really begins finally to speak to 
that, to allow communities to have that flexibility.
    Innovation, and there is a lot of talk about innovation, 
innovation also is risk. And when you take innovation and risk, 
some efforts will be successful, some will be spectacularly 
successful, and some will probably not be successful. But not 
supporting innovation, I think, is probably a least desirable 
outcome than supporting innovation and creating the progress 
that innovation provides and we need to be open, if you will, 
to try and experiment and understand that if something didn't 
quite work, then let's not necessarily move to an enforcement 
mode, because enforcement mode basically shuts down all the 
opportunities that we have before us.
    WEF stands ready to work with our members, to help support 
the implementation of this framework. We will pursue 
educational and opportunities, including considering the needs 
of small and medium-sized communities who may benefit from the 
integrated planning process. So my conclusion, as we embark, as 
we all embark on the next 40 years of the Clean Water Act, let 
us strive to use this framework as a springboard for 
collaboration and partnership to find the best, most innovative 
and cost-effective solutions to achieve water quality 
improvement without saddling our communities with unnecessary 
debt and imposing a financial burden that is unsustainable.
    I look at this as an amazing opportunity to literally shift 
our paradigm in how we do things. This is an opportunity that I 
hope we cannot--we all cannot, we just cannot afford, in my 
view, for their to really fail and not be successful. We 
commend EPA for listening to local governments, and we look 
forward to working with all stakeholders on the implementation 
to realize our shared goals of protecting human health and 
improving water quality.
    I want to thank you for the opportunity to testify, and 
some of us are wearing this little button here that has a very 
simple saying, a campaign sponsored by WEF, and it says 
``Water's Worth It,'' water is worth it.
    Thank you for your time.
    Mr. Gibbs. Thank you, thank you for all the testimony. It 
has been great and very formative.
    I will start off the questions with just a couple of 
thoughts. It seems like there is a common theme. One is you 
need flexibility, affordability issue, issue versus enforcement 
versus permitting, the consent decrees. You could go on, but 
integrated plans, and the exclusion, it seems like I am hearing 
that it should be all-inclusive, not, you know, groundwater, 
drinking water.
    And I guess my first question, I will just throw it out to 
the panel, we talk about the affordability since that seems to 
be the major concern, the 2 percent. Do you see the EPA 
addressing each project, or, you know, if it is wastewater, 
combined sewer, whatever, it is separate silos instead of--it 
seems like if you have an integrated plan you have to got to 
have it all together, so that would affect the affordability, I 
think, formula.
    Does anybody want to expound on that, where you see the 
EPA, the folks, how they address that versus trying to do it 
integrated? Does anybody want to take a stab at it?
    Mr. Berger. Mr. Chairman, certainly the process, up till 
now, has been very much a siloed approach, and I think the 
hope, the promise of integrated planning has been that that 
would be cured by an overall look at the total costs of 
compliance and the priority setting within that.
    I would argue at the same time that unless there is a 
budget cap, you are not really setting priorities. What you are 
doing is merely scheduling. Priorities get set when you can 
decide what it is you can fund and what you cannot.
    My community, we have gone from 530 employees to 350. I no 
longer have a secretary, and I no longer have a chief of staff. 
That is setting priorities, because we have decided to fund 
police officers and firemen. The same thing needs to happen, it 
seems to me, within integrated planning. It can't just be a 
matter of all the obligations simply being lined up on a 
schedule and lower priorities still have to be addressed. There 
truly has to be a containment of costs.
    Once you have established a cost cap, once you have been 
able to define what it is that can be afforded with local, 
limited resources, then priority setting has a meaning.
    I also want to, I guess, contrast what is, I think, the 
progressive taxation methodology that all of us in local 
governments in Ohio, where we have an income tax or States or 
Federal Governments, essentially is based upon an ability to 
pay.
    When we set rates, however, that has nothing to do with the 
ability to pay. A rich person pays the same amount for a drink 
of water as a poor person does. A rich person flushes the 
toilet, and the service and service user fee that is charged 
for that service is the same as a poor household.
    So when these costs associated with the mandates are levied 
across the board, the fact is, is that our rate base and rules 
that govern our ability to set those rates, in fact, impose 
enormous devastating charges on the poor.
    Mr. Gibbs. OK.
    Mr. Berger. It also becomes an enormous problem for 
economic development as well.
    Mr. Portune. Mr. Chairman.
    Mr. Gibbs. Yes. Go ahead.
    Mr. Portune. I would like to echo the Mayor's comments and 
interject an additional thought with respect to the 
affordability question. But clearly, what is missing is balance 
in the discussion, that the 2 percent, the affordability issue, 
all of us in urban issues struggle with that greatly because we 
all are losing the middle class, the middle class is going by 
the wayside and we have the very rich and the very poor.
    And the 2 percent median income approach does not take into 
consideration the undue burden that is placed on a growing 
majority of our residents in urban communities, number one.
    Number two, there has got to be a way to interject 
prioritization into this. I referenced it as an issue of 
balance, where is the balance? When my budget has gone down for 
all county services by over 30 percent in the last 5 years 
because of declining revenues, when I am laying off 1,500 
individuals, when we have cut human services by 50 percent with 
a 40-percent increase in demand, but yet, we have to raise 
rates to do everything in terms of Clean Water Act compliance 
from the number one priority to the least priority, when I am 
spending $200 million total on all county operations, and $380 
million on my sewer-related obligations, there is no balance. 
And there has got to be some balance interjected into the 
equation.
    The third issue, quickly, and that is that the median 
income issue, the 2 percent, is also driving third-party 
lawsuits because there is a focus on that as driving what 
communities can or can't do without regard to the legitimate 
reality of affordability. And so as long as that is in the 
equation it, the unintended consequence is that it is serving 
as fuel on the fire of third-party lawsuits.
    Mr. Gibbs. My time is up. I just want a quick follow up on 
this. When you go over the 2 percent threshold, does the EPA 
back off on the, you know, on the enforcement or going after 
you, or are you saying that also opens up a third-party lawsuit 
issue? Can you expound a little bit?
    Mr. Portune. In our case, in Hamilton County, we had an 
approved consent decree in 2004. And then we were sued by the 
Sierra Club.
    And part what we were sued over was the question that we 
weren't doing enough quickly enough, and the affordability 
issue was front and center, part of their argument of why they 
intervened in our federally approved consent decree. That then 
resulted in a revised consent decree.
    But it was stressing and focusing on the 2 percent and 
whether we were meeting that across the board without regard to 
how many individuals in the city of Cincinnati, for example, 
lived in poverty, how many people were going over that in terms 
of annual income as opposed to a median income, it was a major 
determiner in the challenges that were lodged against our 
consent decree by that third party.
    Mr. Gibbs. Mr. Bishop. Thank you.
    Mr. Bishop. Thank you very much, Mr. Chairman. Mr. 
Chairman, I will frame the issue in a particular way, I am 
going to frame it in a way that I think is very similar.
    It seems to me that we have a huge problem and we have two 
principal solutions, not the only solution, but two principal 
solutions. And one is to adopt a process or a framework that 
emphasizes integrated planning, that emphasizes flexibility, 
that emphasizes prioritization. And I think there is near 
unanimity among the panel, not perhaps total unanimity, that 
the EPA guidelines set forth in the memorandum of June 5 
represents a very good step in the right direction.
    I don't think any reasonable person would argue that this 
is all we need to do or that the framework is perfect, but that 
it does represent a good first step and that we now have, in 
the framework or the process is now 5 weeks old or 6 weeks old, 
we now have, I think, the opportunity to see it put in place, 
see how it evolves and, you know, it is incumbent on this 
committee and incumbent on the EPA and incumbent on all of the 
stakeholders to assess whether or not it is having its intended 
outcomes, and then we all need to be prepared, I think, to 
respond in appropriate ways, if it is working, and certainly if 
it isn't working.
    A second piece is the financing, and I think that there is, 
again, unanimity among the panel that the financing piece of it 
is crucial, and that the framework piece can only take us so 
far.
    Now, the framework piece represents a new approach. We also 
need a new approach to financing, and I--you know, I talked in 
my opening statement about our bill, H.R. 3145. And I will 
note, I know that there is a lot of Ohio guys out here, and I 
will note that my principal Republican cosponsor is Congressman 
LaTourette of Ohio. This is a bipartisan bill that I really 
think has some promise.
    Again, is it the only answer? No, it does not. But it does 
have some real promise. And so I am hopeful in hopeful that in 
the same way that the EPA has undertaken a new approach, that 
the Congress will now undertake a new approach and exercise a 
suite of options that such is what my bill provides. But, Mr. 
Berger, you raised the issue of funding and particularly the 
issue of more grant funding.
    I think it is instructive that we just look at the last 
couple of years of where this Congress has gone. Fiscal year 
2009 we enacted $4.7 billion in funding for the SRF, $4.7 
billion; fiscal year 2010 it dropped to $2.1 billion; fiscal 
year 2011 it dropped to $1.5 billion; fiscal year 2012 it 
dropped to $1.4 billion; and the House Appropriations Committee 
passed the appropriations bill for the Interior and the 
Environment, and it drops that number to $690 million.
    So we are going in the wrong direction here, and we are 
exacerbating a problem that all of you on the ground are trying 
to resolve. And so as we go forward with the, I mean, the 
mantra here is cut spending, the mantra here is we can't afford 
it, the mantra here is that we can't possibly increase revenue.
    That drop, from $4.7 billion to $690 million, that is the 
manifestation of those mantras. And so at some point, we are 
going to need voices of reason to say we have got some real 
problems in this country, and we are going to have to start to 
address them.
    Now with that, I will get off my soap box and I want to ask 
Mr. Hawkins, NACWA put out a press release back in '09 in which 
it sort of, it spoke positively about a GAO report that 
suggested that a Clean Water Trust Fund was something that we 
should be doing, and it put out some potential means of 
funding, a Clean Water Trust Fund. And in the NACWA press 
release it said that fees potentially, underline the word 
``potentially,'' could be placed on such things as bottled 
beverages, flushable products, pesticides, agricultural 
chemicals and pharmaceuticals.
    Would you, representing NACWA, not so much the city of 
Washington, DC, would you comment on the relative desirability 
or the lack thereof of those potential funding sources?
    Mr. Hawkins. Sure, and I will get to you, on the comment 
you made on funding, I think there is a bridge between the two 
points you made, when you asked the question of how integrated 
planning can help with EPA working in silos, I have been an EPA 
enforcement lawyer and have ran a State agency.
    Remember that this policy only comes into to play when the 
municipality or the authority comes forward. So it doesn't mean 
EPA is issuing anything differently unless a municipality is 
prepared to do the background work to come forward with the 
integrated plan.
    And what I can tell you is all that we are seeking to do 
with DC Water is to open up one of them, which is the long-term 
control plan for combined sewers, and that is what has cost us 
$2 million in prep work to be able to prepare the information 
and the analysis needed.
    The cost, just to get to the table to see whether the 
integrated--you start comparing a combined sewer overflow 
challenge to a sanitary sewer overflow issue, to an MS-4, 
comparing the health risk to them and the engineering costs, it 
is an enormously complex matrix that I am glad EPA has opened 
the door to. But separate from the big one, we like H.R. 3145, 
I applaud the proposal, but there is somewhere in between that 
most places aren't even going to be able to get to the table on 
integrated planning because of the costs--just to get there, 
and do the analysis.
    On your second question on costs, on particular products, 
it is like a toll that if you use the road, you pay the cost to 
help update the road. As you know, in the city, we have a 5-
cent cost on every plastic bag that has been used, a very 
similar concept. We raise that money and use it to reduce 
nonpoint source pollution along the Anacostia.
    What we found is that plastic bag use has dropped 
precipitously, because people are making different choices. It 
is a classic economic principle. Put the cost on that item 
which you are handling in the process, you have internalized 
that cost, classic economics, then the cost is borne in the 
product to the consumer. Likely the consumer will use less of 
it because they will start making different decisions, and you 
had a revenue stream in order to help pay for the cleaning of 
that product when it is used.
    So I personally favor it. I would have to go back and 
connect with NACWA to make sure that our thinking hasn't 
changed, but that the concept of intaking the cost of handling 
a waste stream and putting it inside the cost to the consumer, 
both will drive better consumer choices and raise revenue to be 
able to clean up those issues when they come to our facility.
    Mr. Bishop. Thank you very much. My time has expired, Mr. 
Speaker.
    Mr. Gibbs. Mr. Duncan.
    Mr. Berger. Mr. Chairman, Mr. Chairman, a comment. The U.S. 
Conference of Mayors adopted in 2011 unanimously, Resolution 
43, which pertains to CSO and SSO policy, and it was a very 
simple kind of assertion. Either provide 50 percent of the 
funding in the form of grants for our obligations at the local 
level or give us relief. Loans don't help us. Loans are debt 
that have to be paid back.
    I can borrow all kinds of money at incredible rates right 
now, but I can't pay for it.
    So SRF and all of those authorizations, they aren't yet 
appropriations, don't help us if it is just a debt to be paid 
by the rest of my community forever.
    Either it is relief or cash. That is what we need, and 
thus, it is a pretty simple choice. If these are unfunded 
mandates, and what you are hearing from local communities and 
from districts all across the country is we can't do it, we 
don't have printing presses like the Federal Government, the 
local pocketbook is very finite.
    So if the Congress has passed these as mandates and orders 
for us to execute, then you must join us to pay for it. If the 
cash isn't there, or the political will isn't there, then 
relief must come, and it has to come soon.
    Mr. Gibbs. Yes. I think we all understand that, and I think 
right now we are trying to maybe figure out some relief by 
having the integrated permit process and maybe helping the cost 
side to streamline some things, so but you are right, we have 
huge infrastructure issues that we are facing here and we are 
trying to address that, so I appreciate your comments. Mr. 
Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. This is a very 
important hearing, and I was present for the earlier hearing 
when we heard from the mayor of Omaha, and we heard from 
Indianapolis, as Mayor Berger said, we have heard from cities 
and counties all over the country saying they can't afford 
this, and that was a very eloquent, articulate plea you just 
made, Mayor Berger.
    And it seems to me this process is being controlled or 
governed by people who I am sure don't think of themselves as 
extremists or fanatics, but they are sure not being reasonable, 
and they are going to end up hurting a lot of poor and lower 
income and working people in the process.
    Commissioner Portune said that his area is losing the 
middle class. Three of my dad's sisters moved to Cincinnati 
when they were young from Tennessee. I probably had as many 
relatives in Ohio at one point as I had in Tennessee.
    But I read a lot of this testimony, and the Mayor of Peoria 
submitted this in writing, he said, EPA is still asking the 
citizens of Peoria to spend to the limits of affordability, 
even if spending more money will not result in meaningful water 
quality improvements. As noted above, the EPA wants Peoria to 
eliminate as many CSOs as it can afford to eliminate, even 
though the additional CSOs eliminated by going from the city's 
$90 million plan to EPA's suggested plan that we estimate will 
cost almost $500 million, will not result in any meaningful 
water quality improvements because water quality standards 
would be met fully under the city's plan.
    If Peoria has to spend more than five times as much as they 
can afford and they were planning to spend, then the citizens' 
rates are going to have to go up by five times. And a lot of 
people can't afford that, and a lot of cities can't afford it. 
I heard Mayor Berger talk about the people he has already laid 
off going from, what, 530 to 350--what was it?
    Mr. Berger. 350.
    Mr. Duncan. I am sure that was a painful thing for you to 
will center to lay off all those people. And just last week in 
Tennessee, the Chattanooga, the big Chattanooga newspaper, the 
Times Free Press had this story, it starts off, ``The U.S. 
Environmental Protection Agency and the U.S. Department of 
Justice are expected to file a consent decree Tuesday ordering 
Chattanooga to spend hundreds of millions of dollars on repairs 
to the city's sewer system,'' and this is in spite of, they had 
already spent $100 million a few years earlier.
    The city of Knoxville, where I am from, had spent mega 
millions through the 1990s and the early 2000s on our system 
there. Then in 2005, we had to enter into a $530 million 
consent decree, and I am told that the Conference of Mayors, I 
am told that the EPA is foot dragging about the total cost 
estimate, but that the Conference of Mayors says this is going 
to cost hundreds of billions to cities all across this country 
that there is something like 100 or over 100 cities under 
consent decrees at this time.
    And I heard Mr. Hawkins talk about, he says in his 
testimony, the regulations continue to expand, so too have 
enforcement actions, and he says, costing individual 
communities billions of dollars often to meet a single CWA 
requirement. Recently, municipal clean water agencies were also 
hit with a stringent reinterpretation of the Clean Air Act, 
which, if not overturned, will force enormous costs on 
communities, and this is all coming at a time when the cities 
are in trouble anyway economically, because of the economy and 
because of various other factors.
    And, yet, everybody on this panel, and everybody on the 
earlier panel, when we had this hearing a few months ago, 
everybody wants clean water. They want it to be as clean as 
possible. But we have to have a little--we need to have a 
little balance and common sense in here. And we can't, we can't 
please, we can never please the fanatics and the radicals and 
the extremists. But we have got to try to have a little 
moderation and a little reasonableness in regard to these 
requirements, or we are going to really hurt cities and 
counties all over this country.
    And, as I have said at the start, we are especially going 
to hurt a lot of poor and lower income and working people. 
Maybe some of these officials who are cramming all this stuff 
down, as maybe with their higher incomes, they can afford this 
and it won't hurt them, but it is sure going to hurt a lot of 
people across this country if we don't get a little moderation 
and balance in what we are attempting to do.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you. Ms. Eleanor Holmes Norton.
    Ms. Norton. Thank you, again, Mr. Chairman. Mr. Hawkins, I 
have to thank you again for making sewers exciting enough to 
draw the general interest of the public.
    And I must say, I found your summary and your vivid 
explanation important, and you come, of course, from the 
District of Columbia. But in many ways, what you describe is 
emblematic of what is facing, as my good friend on the other 
side says, small towns and big cities like DC alike.
    Now, you know, when they call the cops on you, when you 
announce a 50-percent increase, I know you feel you are caught 
between a rock and a hard place. You mentioned the diminishing 
returns on investment for nutrient removal, and you made us 
understand why.
    On the other hand, look where you are located. You are 
located not only in the Nation's Capital, but in the region of 
the iconic Chesapeake Bay. And part of that mandate has to do 
with improving the Bay's water quality. You said, I think you 
said that the District was the only part of the Bay region that 
met its goals, the Chesapeake Bay goals. Is that true?
    Mr. Hawkins. That is correct, essentially because the only 
major contributor to nutrients to the Chesapeake Bay from the 
District is Blue Plains, and Blue Plains met its goal. So there 
are other facilities that have met their goals, but for whole 
States that have lots of sources of pollutants, they have not 
as a total.
    Ms. Norton. I see. I see. Now, what we are dealing with 
here is essentially are competing priorities, and the public 
wants both, and the public never wants the kinds of costs you 
are getting now.
    Do you see any way to continue along the road you are going 
without placing an increasingly oppressive burden on 
ratepayers? And if you envision that the burden that you have 
encountered, you say in only 4 years, a 50-percent increase, do 
you envision that kind of increase in the future, and if you 
envision anything like it, I would like you to suggest what 
EPA, consistent with its priority as well, and, remember, I 
have set this question up in light of competing priorities, 
what EPA can do.
    I understand, for example, that for districts like ours, 
which have a consent decree, they have increased, I don't know 
if they have done this for the District of Columbia, they are 
either considering or have decreased the number of years that a 
jurisdiction have. Would that have an effect if it is increased 
from 20 to 25 years. Has that happened?
    What else could happen when you know that the Congress is 
not about to come to the rescue, your taxpayers can't afford to 
come to the rescue, and yet there are priorities having to do 
with clean water and with your rivers and streams.
    Given the way that you are locked in, and the way the EPA 
may feel it is locked in by some of these consent decrees, what 
do you suggest could be done to at least bring, lower the rate 
of increase, of these increases?
    Mr. Hawkins. It is certainly the question of the day. There 
is no doubt we have done at DC Water a 20-year projection of 
budgets and rates. Obviously we could only project that part 
into the future with the requirements that we can envision 
today, and the history of the system is that there are many new 
requirements that come in over time.
    Ms. Norton. But is that based on your consent decree, 20-
year time limit?
    Mr. Hawkins. No, we just did this because we wanted to have 
a financial picture for the enterprise. We do 10 years every 
year, a 10-year rolling financial plan. We extended it out 20 
years just because I wanted to see a picture, and we see 
significant rate increases every single year for 20 years, not 
always double digit, but close to double digit that will yield 
far in advance of inflation so your initial part of your 
question is do we see these increases as far as we can plan 
into the future, we see increases faster than the rate of 
inflation.
    Ms. Norton. OK, if that is unsustainable, given the 
constraints on all concerned, should we increase the number of 
years to comply, we know what that will do, of course, to 
nutrients on the Chesapeake Bay and the rest of it, but 
something has got to give. And what kinds of relief do you see 
as practical?
    Mr. Hawkins. I think there are three kinds of relief. One 
is, the extension as you said, EPA and Department of Justice 
has been forthcoming. There is Atlanta, and Seattle, and 
Philadelphia, there have been new approaches taken to these 
solutions. One of the challenges is opening up existing consent 
decrees, where flexibility has been most possible is where 
there isn't yet a consent decree in place yet, so you 
negotiated adaptive management from the beginning. It seems far 
harder for communities that stepped up sooner and more quickly 
to reopen those decisions and incorporate modified compliance 
schedules, but I think that part of the equation is a longer 
period of time to conduct the work so that financial components 
can be extended on the pocketbook.
    A second question is how you get equity on the sources of 
pollutants. You are correct that we are reducing the nutrients 
at Blue Plains. The challenge is that over time, the percentage 
of nutrients going into the Chesapeake Bay from the big urban 
wastewater treatment plants has declined dramatically because 
we have been successful. We know that if we----
    Ms. Norton. And somehow that ought to be rewarded.
    Mr. Hawkins. And the way it is rewarded, and we are proud 
of it, and we have stepped forward and every community at this 
table has done a lot to protect the waters of the system. But 
what we know if we decrease nutrients from Blue Plains to zero, 
the Chesapeake Bay wouldn't be remarkably cleaned up because we 
are no longer the major source.
    The major sources are the nonpoint source, the runoff from 
other sources way out in the hinterlands of the Chesapeake Bay. 
So I think one of the challenges that we faced is that the 
Clean Water Act wasn't fundamentally written with those sources 
in mind.
    I grew up in Ohio, in Cleveland. I visited the Cuyahoga 
River in 1969 and looked at it in the year where it burned for 
a week, so I know the problem that we were trying to resolve. I 
wrote a letter to President Nixon that year saying that, as did 
everyone in my class, that we had to clean up that problem. It 
should not stand.
    The law was written to solve pollutants from point sources, 
whether industry or municipal treatment facilities. It is very 
unclear, and EPA is struggling with it, but to get parallel 
reductions from what are now the prevailing sources of 
pollutants for nutrients into the water bodies is a much more 
difficult challenge. And if you look at where the money is 
being spent, it is being spent disproportionately on urban 
populations or those that send waste to a treatment facility, 
rather than those that flow directly to the river.
    Ms. Norton. But you feel mandated to continue to invest in 
the technology that goes after smaller and smaller increments?
    Mr. Hawkins. We are absolutely mandated to do that. We will 
meet those requirements. The hard core reality of every system 
at this table is that we meet the mandates where we don't spend 
the money on that trunk line on Florida Avenue, which causes 
the flooding in our city, which is what the citizens really are 
desperate----
    Ms. Norton. Mr. Chairman, could just ask one more question. 
I would like to know if you wanted to do a pilot on green 
technology, you are now spending billions of dollars on these 
huge tunnels that is 20th-century technology. We understand why 
it is being used, tests that it is approved. Do you believe 
that green technology would significantly lower the increases 
you are encountering and have you any evidence to support that 
notion?
    Mr. Hawkins. I am not yet convinced. The reason we are 
seeking to open our consent decree to do a pilot in the 
District is we are not certain about what the costs are likely 
to be. We are not saying to any of the stakeholders that we are 
likely to save a lot of money if we use low-impact development, 
because it is quite expensive to be doing a dispersed low-
impact system that is broad enough to contain that much 
stormwater. We do think, however, that the multiple benefits 
that come from the expenditure, when you are doing work that 
affects the surface of the city, the city streets, the air 
quality, the stormwater retention that otherwise causes the 
direct flooding, the jobs, the long-term jobs, you cannot 
outsource jobs that have to be maintained for a city street.
    The job creation in the city, the multiple benefits that 
come from a low-impact development far exceed those of the 
tunnel. We are not certain yet that it actually will save 
money. That is why we want to do the pilot to get in hand 
measurable costs that we can then model to a full-scale 
implementation.
    Ms. Norton. Thank you very much.
    Mr. Gibbs. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, very interesting 
conversations. I also come from a small city, past mayor, so I 
understand some of the local frustrations. And I also sat on a 
sanitation board that dealt with the water recycling and the 
landfills and the utilization of new technology to be able to 
cut the costs down of the delivery of service to the 
ratepayers.
    Mr. Becker, in the West, we do have a unique set of water 
challenges, and recent reports have shown our water supply is 
diminishing while the demand is increasing. Population 
continues to increase, at least in California.
    How will you, as Mayor of Salt Lake City, are reintegrating 
reuse and recycling into your city's water planning efforts?
    Mr. Becker. Thank you. Increasingly in our city and in our 
region we are tapping every conceivable means that we can to 
use water efficiently.
    Mrs. Napolitano. How? Specifics.
    Mr. Becker. We are doing a whole variety of things. Part of 
it is institutional. Part of it is us coordinating our water, 
part of it using our groundwater supply. But we know there are 
limits there. As we are seeing climate change, we are having to 
adapt in our watersheds to our water supply system.
    We are increasingly--we have changed our rate structure. We 
have gone to a declining block, we have gone to an inverted 
block system where the more water you use now, the more water 
you pay for. We have reduced our water use in the last 5 years 
by more than 20 percent in Salt Lake City just by changing our 
rate structure, by educating our community, and by offering 
incentives for people to change their landscaping and their 
water use and irrigation habits as well.
    So we find that we can do a lot to improve, certainly, our 
water systems. But as has been mentioned here, this is a 
problem that we face really for all of us.
    Mrs. Napolitano. Especially Western States.
    Mr. Becker. Certainly in the Western States, where as you 
know we are the second most arid State, we rely so heavily on 
using our water well, and we are intent on continuing to do 
that and improve our efficiencies. But we really need 
congressional action as well. This just can't happen by us 
working locally and trying to work with our EPA.
    Mrs. Napolitano. And your water smart investments.
    Mr. Becker. I am sorry.
    Mrs. Napolitano. And your water smart investments?
    Mr. Becker. Continually. Whether it is in simple things 
like metering, whether it is in our irrigation systems within 
our city, for our parks, we are continually investing and 
making major investments on water issues.
    Mrs. Napolitano. One of the things you mentioned to us is 
climate change, and that was a big bugaboo word around here. It 
is happening, and I think many States are beginning to wonder 
how they are going to be able to deal with the next cycle of 
drought. And then, of course, rains and floods and all that 
will other good stuff.
    What about groundwater, your aquifers? What is the status 
and have you worked with USGS? And how are things being the 
able to store it, because as the drought continues, the heat 
that is going through the United States is evaporating a lot of 
the surface water. Have you looked at, are you looking at being 
able to identify your aquifers and what the status is and be 
able to recharge?
    Mr. Becker. We have. Thank you. Groundwater is essential 
for us, we have a very good sense of our groundwater system in 
our valley, coming out of our mountains and our recharge areas, 
and protecting those recharge areas is essential, making sure 
we don't tap too much of our groundwater is essential too, 
because the Great Salt Lake will start to move towards and 
interfere with the water we can use for potable water.
    So we know how much water we have. We are tapping it 
extensively, but if we overtap it, we are going to face dire 
consequences in terms of the water supply.
    Mrs. Napolitano. Overdrafting is a problem, isn't it?
    Mr. Baker, same question but the broader statewide 
perspective, and can you discuss how in the area west in the 
State of Utah you are dealing with decreased water availability 
and increasing demand, and how will integrated planning help 
your efforts in Utah?
    Mr. Baker. Well, I think one thing we need to do is 
integrate this wet weather discussion that we are having for 
the NPDES permits, with groundwater, which is not a federally 
permitted authority, and with drinking water.
    When I get back to my office tomorrow I will have sitting 
on my desk the first integrated plan to be submitted by a 
community in Utah. It is not a wastewater treatment plant 
issue, it is not a wet weather issue, but it is a water quality 
issue resulting from water that is coming out of a mine that is 
heavily laden with metals, and those metals are causing 
problems, according to the TMDL we did. This really becomes a 
water quality issue, so we need to have a broader perspective 
of this. It is not wet weather, it is not wastewater treatment 
plants, it is not just combined sewer, but it is water quality.
    Mrs. Napolitano. Which mine might that be, sir?
    Mr. Baker. Pardon me.
    Mrs. Napolitano. Which mine might that be?
    Mr. Baker. Well, it is outside of Park City, and so we are 
going to need to figure out how to deal with this. And just to 
answer another question that Congresswoman Norton had, well, 
how do we do this?
    One thing, we struggle with nutrients in Utah and we don't 
struggle with wet weather. Mayor Becker mentioned Utah is the 
second driest State in the country. Wet weather is a blessing, 
not a curse. But this nutrient issue is ubiquitous across the 
country. What we are planning on doing with our nutrient issue, 
and this will help, I think, address some of the cost issues, 
is we are not going to go full throttle from the very 
beginning.
    We are going to do an incremental approach and have an 
adaptive management approach that will allow us to gauge the 
success and benefits of nutrient removal in a cost-effective 
way. The Jordan River bisects Mayor Becker's city, runs the 
lengths of the city. Most of the wastewater generated in the 
State of Utah flows down that river and ultimately into the 
Great Salt Lake.
    For a little over a dollar a month per user, we will be 
able to eliminate two-thirds of the phosphorus loading that 
goes into that river and ultimately to the Great Salt Lake that 
is causing problems. And then we will take a step back and see 
if that is good enough, or if we need to go to the next step.
    So this adaptive management approach I think is going to be 
a key element in making integrated planning successful, and 
without breaking the bank.
    Mrs. Napolitano. One of the questions that was answered by 
Mr. Hawkins deals with the source, the prevailing source. We 
found in California that a lot of this comes from industry, 
from agriculture, that is contaminating some of our water. 
California gets three sources of water, southern California. 
Northern California provides us with the Bay Delta, which right 
now is a big issue in California. And then one is the Colorado 
River and the other is groundwater. And somehow we are trying 
to wean ourselves off of imported water by doing more 
recycling, conservation, education and desalination.
    Now, any of those areas we need to be able to get 
assistance, because as you have pointed out, many of the cities 
are too small to be able to know how to navigate all the 
paperwork that is necessary and be able to be successful 
without hiring attorneys, consultants and things that they 
cannot afford. So somehow we need to be able to understand that 
for the smaller communities. However, the larger communities 
also have a problem. So somehow we need to be able to take all 
of this into consideration.
    However, I have not heard anybody say anything about what 
about our Native Americans? What about their water, which 
sometimes they truck it in to be able to provide drinking water 
for the reservations. Those are issues that sometimes we don't 
talk about, and I think we need to be able to concern ourselves 
with all Americans, not just those that fall in the communities 
that are incorporated but all the unincorporated and tribal 
areas.
    With that, Mr. Chair, I yield back and I hope to be able to 
get some answers later on. Thank you.
    Mr. Gibbs. Representative Edwards, do you have any 
questions?
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to all 
of our witnesses.
    I have just a couple of questions. I think there is no 
question we all know all across the country that we have huge 
infrastructure needs, we have no money, and we are running the 
risk--I live in Maryland, and maybe I can drink some clean 
water there, but I could go someplace else and it not be clean. 
And I don't think that any of us want to be in that place. We 
have all traveled to countries where you can drink water in one 
city, but you better make sure to take your bottled water in 
another city. That is not the United States and we don't want 
that.
    The problem, at least one of the challenges, is how do you 
finance all of the infrastructure? When you start telling 
customers that we have infrastructure that dates back to the 
beginning of the last century, and we have got to change that 
and it is going to cost billions of dollars, and at the end of 
the day, they know at least some of that, most of it, probably 
all of it, is going to have to come out of their pockets, no 
one wants to do that.
    The same thing happens, we just had a major storm here in 
the metropolitan area, and we know that we have deep needs for 
electrical infrastructure, and nobody wants to pay for that 
because it costs a lot of money. The Federal Government, I 
think, has to be a real partner there, but that is still 
taxpayer money.
    We heard from a couple of our witnesses, and I can 
understand this, that at a local level, because of those huge 
financial constraints, that it also means that some of our 
small cities, and I have about 20-some of them, little 
municipalities that also have infrastructure needs, and they 
can't afford it.
    So I wonder if any of you can talk about the integrated 
permitting process as a way to facilitate consideration of 
innovative financial approaches to financing the 
infrastructure. I would note that in a recent analysis of green 
water infrastructure in Philadelphia, it actually showed that a 
stormwater fee that was combined with a credit for managing 
water onsite could yield about $400 million in private 
investment opportunity.
    So, if you have some ideas about it, I would appreciate 
your sharing them with the committee.
    Mr. Becker. Mr. Chairman, if I may, members of the 
committee and Congresswoman Edwards, there is a real practical 
solution that can help us get there within the integrated 
planning process.
    Our coalition has proposed a 15- to 20-community pilot 
demonstration project approach on an annual basis for the next 
5 years within the context of the integrated planning 
framework, where EPA is leading the process.
    The showcase community approach that exists today places 
all of the financial burden of developing new ideas, of seeing 
if the alternative approaches work, in determining whether 
creative approaches to this solution, financial, capital, 
infrastructure, green infrastructure, green build, otherwise 
will work. The burden is still all on the local communities to 
take the risk, financially and otherwise. And if what we choose 
doesn't work, not only are we out the money, but we are still 
facing mandates and we are still facing enforcement and the 
like.
    We need EPA to lead on this process. We want EPA to lead. 
And I will admit that there has been a sea change in the 
approach in our own interaction with the EPA and the like. But 
EPA's approach to showcase communities is still saying let's 
look at the examples where local communities have found 
something that has worked, and let's showcase that. Well, you 
still have to have enough money and enough resources and access 
to expertise and time to be able to make that work, and the 
majority of the communities, and the last count I heard was 
there were 781 communities nationwide that are facing this 
issue at one level or another, the vast majority don't have the 
ability to do that.
    We need EPA to lead in partnering with us, to bring their 
expertise to the table, to help show local communities what the 
answers are, or to allow us to explore alternatives without 
risk of loss or further risk of enforcement for having chosen 
the wrong approach if it turns out that it doesn't work. We 
need to develop these alternatives over the next 5 years to 
make them work.
    Ms. Edwards. I appreciate that. Let me just reclaim my time 
because I would like to hear a response from Mr. Hawkins and 
your view about what it is that we could do to use some 
innovation.
    Mr. Hawkins. On the financing side, we do, in fact, in the 
District, have an impervious area charge like Philadelphia. One 
of the other things we have done in the District is create a 
sustainable energy utility, which is something you could also 
perhaps do on the water side, which it does need an upfront 
investment to capitalize the utility. Then you make 
investments, particularly on the drinking water side, where 
then you can save money on reduced consumption. The saved money 
pays back the utility to help fund the next project. And if the 
private sector brings in half, so you do sharing, then the 
dollars that you put into the utility, the sustainable utility, 
whether it is water or energy, can be sustained and grow.
    The impervious area charge is the largest and fastest 
growing--not the largest, but the fastest growing part of our 
bill by far, because it is exclusively covering the $2.6 
billion project. We haven't created it yet like Philadelphia, 
but creating an incentive that if you do more to manage 
stormwater on your property, you pay less of an impervious 
charge. That is another way where there is an incentive for 
someone to reduce their bill by doing something that actually 
reduces the stormwater and can cleanse it at the same time. So 
both of those are innovative approaches that do work.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you. I want to thank the first panel. It 
was excellent testimony. I want to move on to the second panel, 
because I think that is where we really need to have some 
focus. Hopefully we will be done before votes at 1 o'clock. 
Thank you again for taking your time to come and give this very 
important testimony.
    At this time our second panelists can come up to the table. 
Welcome to the committee. First off I want to thank you for 
being here for the past 2 hours and listening to the first 
testimony, because hopefully it was beneficial to you in your 
role and your responsibilities as you administer the Clean 
Water Act.
    Our second panel, we have Ms. Nancy Stoner. She is the 
acting assistant administrator for the Office of Water for the 
United States Environmental Protection Agency, and Ms. Cynthia 
Giles, the assistant administrator for the Office of 
Enforcement and Compliance of the United States EPA.

 TESTIMONY OF NANCY K. STONER, ACTING ASSISTANT ADMINISTRATOR, 
OFFICE OF WATER, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY; 
     AND CYNTHIA GILES, ASSISTANT ADMINISTRATOR, OFFICE OF 
      ENFORCEMENT AND COMPLIANCE ASSURANCE, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Gibbs. Welcome, Ms. Stoner. The floor is yours.
    Ms. Stoner. Thank you, Chairman Gibbs, Ranking Member 
Bishop and members of the subcommittee, for the opportunity to 
appear before you today, along with Assistant Administrator 
Giles to discuss the U.S. EPA's efforts to achieve better water 
quality improvements through integrated municipal stormwater 
and wastewater planning and innovative approaches for meeting 
our infrastructure challenges.
    We were pleased to hear from the other witnesses at today's 
hearing, and look forward to moving forward with the integrated 
water quality planning approach as a way to offer 
municipalities an opportunity to meet Clean Water Act 
requirements in a more effective manner and in a way that 
achieves the highest priority goals more quickly.
    The EPA, States, and municipalities have often focused on 
each Clean Water Act requirement individually for protecting 
water quality. This approach may have the unintended 
consequences of constraining a municipality from implementing 
the most cost-effective solutions in a sequence that addresses 
the most serious water quality issues first. Since last fall, 
we have been working to clarify the integrated planning 
approach by developing a framework document to help explain how 
the Agency will work with State and local governments.
    On June 5 of 2012, after holding a series of public 
workshops around the country to gain input on the approach, we 
signed a memorandum to EPA regions that transmitted the final 
framework. The framework outlines the principles we will follow 
in implementing the integrated approach and provides further 
guidance on developing and implementing effective integrated 
plans under the approach.
    It also outlines new flexibility to pursue innovative cost-
saving solutions, like green infrastructure, that will help 
communities develop plans that prioritize their investments in 
stormwater and wastewater infrastructure.
    Let me briefly talk about what the integrated planning 
approach is and is not. The integrated approach is optional, 
not mandatory. Any community satisfied with its current 
approach to water and wastewater requirements can continue that 
approach.
    The integrated approach does not entail lowering existing 
Clean Water Act standards. Rather, the approach will take 
advantage of the flexibilities in existing EPA regulations, 
policies and guidance to allow municipalities to sequence 
implementation of their Clean Water Act obligations to protect 
water quality and public health at a reduced cost.
    The integrated approach relies on Clean Water Act permits 
as critical tools for protecting water quality and achieving 
Clean Water Act compliance. Permits can include the use of 
multiyear compliance schedules and can incorporate innovative 
solutions that best achieve public health and environmental 
goals while meeting the needs of the community. They also can 
be flexible and include the adaptive management approaches that 
several advocated for today.
    Integrated plans can be tailored to the needs of the 
community, and can include innovative techniques. EPA's 
existing regulations and policies provide flexibility for the 
EPA and States to design solutions that meet community needs. 
These solutions can include innovative tools such as green 
infrastructure techniques and asset management approaches, that 
is actually what George Hawkins was talking about, asset 
management approaches, that provide a better basis for 
decisionmaking on a utilitywide basis and support the long-term 
financial sustainability of the municipality.
    We at the EPA look forward to working with this 
subcommittee, our State colleagues, municipalities and many 
other partners, stakeholders and citizens to implement the 
integrated planning approach. We are committed to maintaining 
improvements in water quality and moving forward toward full 
attainment of water quality and human health goals.
    Thank you again for inviting me to testify. Assistant 
Administrator Giles or I will be happy to respond to any 
questions you may have.
    Mr. Gibbs. Ms. Giles, you are welcome.
    Ms. Giles. Thank you, Mr. Chairman. Thank you for giving me 
the opportunity to make a few comments. I am happy to be here 
today along with my colleague, Nancy Stoner, to talk about the 
collaboration between EPA's headquarters and regional 
permitting and enforcement programs to improve water quality 
through integrated municipal stormwater and wastewater 
planning.
    We have made tremendous progress towards cleaner water over 
the last four decades. Our goal is to continue to make progress 
on clean water goals shared by communities across the country 
by working together to make smart choices about priorities, 
take advantage of innovations, and make sure that the most 
important work is done first. These principles are the 
foundation of the integrated municipal stormwater and 
wastewater planning approach that we have now finalized and are 
implementing.
    We listened to States, cities, wastewater utilities and 
many others in developing the final framework. We heard and 
have responded to the need for flexibility to adopt affordable 
and commonsense sequencing of work, to address the most 
important problems first, and respond to new information over 
the course of the community's implementation of its plan.
    We were also encouraged that communities are increasingly 
embracing green infrastructure as part of an affordable 
solution to protect water and revitalize communities, and the 
framework supports those choices.
    We agree that the best answer will vary by community, and 
that solutions need to be tailored to each situation. Sometimes 
a permit will be the way to accomplish these objectives, 
sometimes an enforcement agreement, and sometimes a combination 
of approaches will work best.
    We have reached agreements with many cities across the 
country, including Indianapolis, Cleveland, St. Louis, Atlanta, 
Philadelphia, Chattanooga, and many others that include these 
new green infrastructure and integrated planning approaches. We 
look forward to working with these communities and many others 
who would like to pursue an integrated approach.
    I am happy to respond to any questions.
    Mr. Gibbs. Thank you. You heard the first panel, and I 
appreciate you listening to them so you got it firsthand. I 
think I will start off. You heard the first panel discuss about 
the pilot community demonstration projects and what, Ms. 
Stoner, what you said back in December at our first hearing.
    Where are we, where is the EPA on that? Because it seems 
like to me if you can do that, that would highlight what is 
going on, it would maybe work out the kinks and finesse it a 
little bit to make this work, because I know you are committed 
to making this integrated permitting process work. But where 
are we on setting up some demonstration projects like pilots to 
work through this?
    Ms. Stoner. Thank you, Mr. Chairman. Yes, we are in a 
position where we have not turned anyone away yet from this 
voluntary program. So all are welcome. So it is not an 
exclusive list, but we are doing the very best we can to work 
with the resources we were given, to work with those 
communities that have stepped forward and indicated that they 
would like to work with us. That is where we are.
    Mr. Gibbs. What are you doing to reach out to them? Are you 
taking the initiative, or are you waiting for them to come to 
you?
    Ms. Stoner. We are absolutely reaching out to communities. 
Every regional office has been asked to work through the 
States. The permitting authorities in 46 States--the States do 
the permitting in 46 States, and we have asked the regions to 
reach out to the States and the States to reach out to the 
communities. We have done Webinars. We have done five 
stakeholder meetings. We are getting the word out and asking 
people to come work with us.
    Mr. Gibbs. Do you have a response coming back? Do you think 
you will have some setup here in the next 30-60 days going 
forward? What kind of response are you getting?
    Ms. Stoner. Well, we are already working with a number of 
communities on both the permitting side and on the enforcement 
side, so we have a number that have already stepped forward and 
we are working with them.
    Mr. Gibbs. OK.
    Ms. Giles. I would agree. We had quite a number of 
discussions ongoing, some of which have reached conclusion, 
such as in the city of Seattle, and some of which are ongoing. 
So we are working with Philadelphia, and I believe George 
Hawkins mentioned in DC, and many other communities, 
Cincinnati.
    Mr. Gibbs. I would appreciate it if you would keep my 
subcommittee staff up to date on the progress of that so we can 
monitor that, especially since we aren't going to be here much.
    A lot of things came up, the consent decrees. Is it 
possible, I think your intent, we have issues with the 
permitting. It is 3-5 years, extending that, versus consent 
decrees. Let's go, for example, a municipality entity is under 
a consent decree. Is the EPA willing to show flexibility if 
that entity is willing to develop an integral plan? What are 
you allowed to do and what are you willing to do?
    Ms. Giles. Absolutely. We have said repeatedly, and we will 
repeat again here, that we are happy to work with communities 
under existing agreements to adopt an integrated plan, and we 
have some record of amending existing agreements to do that, 
most recently, Indianapolis and Atlanta.
    Mr. Gibbs. You heard in the first panel about the third-
party lawsuits. Can you maybe expound on that, what the 
challenges are there, if it is something we could address. I 
guess what I am saying, if an entity, city, whatever, has a 
plan and the EPA, you are all working hand in hand, you have 
set the goals and they are making their benchmarks, and a third 
party comes in and says hey, you are not doing it fast enough, 
even though the affordability and all that, can you expound on 
what those challenges are to help the committee understand that 
a little better?
    Ms. Stoner. Let me address the permitting side of it. So 
under the Clean Water Act there is a permit shield provision. 
So any permitted entity that is in compliance with its Clean 
Water Act permit is shielded by the law from third-party 
lawsuits. We think we have the flexibility now under the 
existing statute and regulations to include compliance 
schedules in NPDES permits that will enable entities to be 
incorporating those long-term plans right into their permits in 
the 5-year increments, and to do adaptive management as they go 
along and learn more. So we believe we have the flexibility 
now.
    There is one caveat to that, which is a State which does 
not allow that flexibility may not enable the permit to have 
that occur. But every State can allow those compliance 
schedules to be in permits if the State chooses to do so, and 
they can make that change now for any requirements that are not 
allowed now to be included in those 5-year permits.
    Mr. Gibbs. Are you at the EPA considering on the integrated 
permitting process to open it up more than just as you heard in 
the testimony, drinking water, groundwater, if they have 
challenges with that, or some of the other things they have to 
come into compliance with, just besides the sewer overflows, 
for example?
    Ms. Stoner. Well, our focus right now is integrated the 
wastewater and the stormwater, but that does include those 
asset management issues that we were talking about earlier. So 
the full range of wastewater and stormwater, whether it is an 
obligation or whether it is providing the infrastructure 
necessary to provide those sanitary services to the public, all 
of that can be considered right now. That is the focus of our 
approach.
    Mr. Gibbs. To follow up a little bit, in the testimony I am 
trying to recollect here a little bit, the affordability piece, 
is EPA looking to address that? You heard from every panelist I 
believe that you get wealthier people in the community and 
poorer people, and unfortunately the people on the lower end of 
the economic scale get hit hardest, and some of the formula 
determining it, the 2 percent. I also couple that with would 
EPA be more willing to look at the total integrating plan, the 
2 percent, and not be in silos for each project?
    Ms. Stoner. So the framework already talks about allowing 
consideration of disproportionate burdens on portions of the 
community. It also allows consideration of State and local 
tools as well as the financial capability assessment guidance. 
And that number that people were referring to repeatedly, the 2 
percent median household income, is not a floor or a ceiling. 
It is just a guide. So I believe the flexibility already exists 
in the framework that they are looking for.
    What I heard a lot of people saying is that they would like 
to have more resources available, and certainly the needs are 
great. But we think we have the flexibility now under the 
framework to address this as best as we can in partnership with 
State and local communities using the resources available.
    Mr. Gibbs. OK. I will turn it over to Ranking Member 
Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman, and thank 
you both for your testimony, but more important, thank you both 
for the work that you have done over the last several months on 
this integrated framework. I think the testimony that we heard 
from the previous panel, which, as I said before, was nearly 
unanimous in its both endorsement and appreciation of the work 
that you have done, is something we don't often hear in this 
committee. So I thank you for that.
    I just have two questions. The first is we now have a 
framework. We are going to have to test that framework. So my 
question is to what extent is the EPA prepared to be 
additionally flexible going forward as we see whether or not 
the framework does, in fact, result in the desired outcomes or 
whether we are going to need to either introduce additional 
flexibility or whatever?
    Ms. Giles?
    Ms. Giles. Yes. We designed the framework so that we would 
allow that additional flexibility, and I think one of the 
things that you heard from all of the witnesses today on the 
first panel is the importance of being able to adapt to the 
specific circumstances of a community. So that is why we 
designed it in the way that we did, so that we can work with 
each community to try things that will work for them. And as we 
go, we will learn by doing. And I think the communities will 
also learn from each other about which programs work well.
    Mr. Bishop. OK. Thank you. Ms. Stoner, anything to add?
    Ms. Stoner. No. I agree.
    Mr. Bishop. All right. The second question. We heard from 
Mr. Portune and others in the first panel about whether they 
would be called model cities or showcase communities or pilot 
projects or whatever. So my question is this. One of the 
mantras of this committee has been that we should be doing more 
with less. Now, we are certainly providing the less. The EPA's 
budget, if the chairman's mark in the House Appropriations 
Committee is enacted into law, it would result in a $1.4 
billion reduction year-to-year under fiscal year 2012, a 17-
percent reduction in 1 year.
    So my question is, if we agree that this notion of having 
showcase communities is a really good one, that is worthy of an 
effort, does the EPA have the capacity, do you have the 
financial capacity to invest in these showcase communities, or 
would such an effort require additional appropriations, or 
would you have to hurt some other activity of the EPA in order 
to undertake this one?
    Ms. Stoner. As you are probably aware, the State Revolving 
Funds that are the principal source of funding we have under 
the Clean Water Act and the 319 funds, they all go to the 
States and they are distributed according to formulas, and we 
couldn't just shift money to particular communities even if we 
thought----
    Mr. Bishop. I am sorry, I don't mean to interrupt, actually 
maybe I do. Are you saying that this is a State-based decision 
as opposed to a Federal decision?
    Ms. Stoner. Well, it is the Federal law. The grant money 
goes from us to the States, and then the States distribute it. 
And there is no specific pot of money set aside anywhere that I 
know of for pilot communities on this.
    Mr. Bishop. So to be clear, if we were to engage in pilot 
communities, that would require an investment on the part of 
the States, from their SRF funds, in order to make that happen. 
Is that correct?
    Ms. Stoner. Yes, if they chose to do that.
    Mr. Bishop. And we are handicapping, or handcuffing the 
States by virtue of the huge reductions that are proposed for 
the SRFs. So this notion, even if it is a really, really good 
one of pilot communities or test communities, would be really 
hard to pull off. Is that a fair assessment?
    Ms. Stoner. There is no new money available for this.
    Mr. Bishop. I think that is a yes. OK, thank you very much. 
I yield back the balance of my time.
    Mr. Gibbs. Representative Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And after that, the 
administrative handling fees for the State upon the entities if 
there were to be such a program, or I mean if they were going 
to be able to do that. So that if you sent it to the State and 
the States get a certain amount, 5, 10, whatever percent for 
administering the programs to the cities, so you lose money in 
that area, right?
    Ms. Stoner. The amount of money is fixed, so if one city 
gets more, another city gets less.
    Mrs. Napolitano. Well, you heard some of the questions that 
I had posed to some of--and thank you very much. Your western 
representatives are great with my communities, especially my 
councils of government. They have done an outstanding job. I 
know years ago they came to me because they were being asked to 
comply with the runoff to the ocean, and they felt that it was 
very hard for the cities to be able to keep sacred stuff from 
going to the ocean and then be fined by EPA, so they came to 
some agreement in that area. So thank you for that.
    Last December, I had asked you a question regarding the 28 
different agencies that deal with the water issues and how does 
the integrated framework memorandum address integration across 
all these various agencies of the Federal Government that deal 
with water, and how do we know that we can help in being able 
to clarify or assist in making it a little better, less 
paperwork, less work, less funding, and as was pointed out, 
expensive forms, time consumed in that.
    Ms. Stoner. We do have a number of efforts that are efforts 
at integrating the Federal agencies and their approach to 
working with communities. That is actually the centerpiece of 
what the urban waters effort is, which was created by 
Administrator Jackson, and it is to work with communities on 
what their priorities are in terms of reviving their water 
bodies and access to those water bodies and arraying all of the 
Federal agencies that can help put that together through the 
various mechanisms they have.
    Mrs. Napolitano. You did make mention that you do reach out 
to some of the communities to be able to help them learn more, 
but I am sure, as with everybody else, your funds have been 
consistently diminished to be able to do that outreach. Well, 
that is no different for the States' current standing, 
especially in California where many cities are going bankrupt. 
So there is very little way for them, or no way at all, for 
them to be able to implement any of the requirements. So this 
then becomes a great issue for entities.
    And then again, going back to the disenfranchised 
communities such as the tribes and the colonias, which have no 
Government, the colonias, so-to-speak, and the tribes, because 
sometimes they do not have the ability to be able to navigate 
the Federal system. Can you give some examples of how the 
integrated planning might be beneficial to these entities to be 
smarter and more efficient in the development and use of water, 
and how are you going to deal with them, what outreach or 
education will you be providing?
    Ms. Stoner. So we do provide funding to tribal nations, 
with running--can you hear me now? How about now?
    Mrs. Napolitano. I think your system is gone. You can just 
speak up. I think somebody might have leaned on something.
    Ms. Stoner. We do work with tribal nations. We do have some 
funding to provide to them to continue the funding to assist 
tribes in developing water quality standards and protecting 
those tribal waters. I think this kind of approach that we have 
will help all communities----
    Mrs. Napolitano. I am sorry to interrupt, but my time is 
coming up. What about the nonfederally recognized tribes.
    Ms. Stoner. The funding does go to federally recognized 
tribes.
    Mrs. Napolitano. Only the federally recognized, and the 
others are out of luck?
    Ms. Stoner. Just the federally recognized. That is my 
understanding.
    Mrs. Napolitano. That can create a problem, because there 
is the issue of health, and that is maybe something we need to 
be able to get more in tune with. There is a whole bunch of 
other questions, but can you describe some of the green 
infrastructure tools that you are proposing that water agencies 
use as part of the integrated solutions to the water 
management?
    Ms. Stoner. Absolutely. So green infrastructure is very 
popular with communities we are working with. They find that 
whether it is swales along roads, whether it is rain gardens, 
green roofs, rain water harvesting, all kinds of approaches 
that they can use to reduce pollution and augment water 
supplies. But I think communities drive economic 
revitalization. We find it is very popular in a lot of 
communities and want to integrate that into their existing 
plans.
    Mrs. Napolitano. A lot of this new technology coming up, 
being able to utilize solar panels or other means of being able 
to produce energy that will cut the cost of, say, the pumping 
and other stuff--there you go, are you working with any of the 
entities that are making these groundbreaking new technologies 
available and being able to, not promote necessarily an item or 
a business, but being able to cut the usage of electricity, for 
instance, to do some of the work?
    Ms. Stoner. Yes. We are doing the best we can in terms of 
providing technical assistance. Just last week we provided 
$950,000 in technical assistance to communities who want to 
know how to get going on green infrastructure, how to evaluate 
what they can do to remove local barriers. I was just up at a 
Water Environment Federation conference on new technologies in 
stormwater management just last week also in Baltimore. I think 
there is a lot of enthusiasm and a lot of efforts being made 
both inside and outside the Government to disseminate knowledge 
about these technologies so everyone can benefit from them.
    Mrs. Napolitano. I am sure you do--just a second more, Mr. 
Chair--you know a lot of those new technologies. But how would 
an entity that has no idea of how to get that information, how 
would they be able to know where it is? Do you give it to the 
Members of Congress, do you give it to the cities themselves, 
is it published in the Conference of Mayors, the National 
League of Cities, so they can disseminate it to those that 
don't have your Web site, your email address or any other way 
of getting in touch to provide this information to help 
themselves?
    Ms. Stoner. We do all of those things that you are talking 
about. We did just redesign our Web site to make it easier for 
people to find information. We are putting together an 
opportunity for green infrastructure, not too much, and so we 
are working on getting the word out through all of those 
different partners that you mentioned. And the other thing that 
is happening is that there is lots of consultants who are also 
letting people know about these technologies and how they can 
help their communities in employing them to revitalize their 
waterways.
    Mrs. Napolitano. Thank you, Mr. Chairman. Thank you for the 
indulgence. Thank you for your answers.
    Mr. Gibbs. Representative Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. Ms. Stoner and Ms. 
Giles, I hope you don't take this personally. We want to hear 
you.
    Ms. Stoner, I wonder if you could tell me, I know here in 
the metropolitan region, the Anacostia watershed runs through 
Prince George's County where I live and represent, and last 
year the county received $200,000 from EPA to implement several 
green infrastructure initiatives. You had an opportunity to 
visit one that was supported by the EPA out in Edmonston. And I 
have to tell you for these small municipalities, when they get 
that, what is really essentially a little bit of money, the 
other municipalities, one, they want to compete with each 
other, they want to outdo each other, they want to do green 
infrastructure. Do you have plans to award competitive grants 
to municipalities on an annual basis?
    Ms. Stoner. I wish I could say yes to that. So we did just 
give some money, it was actually technical assistance, to 
communities wanting to do green infrastructure. We also have 
urban waters grants. We also use Brownfields grants which can 
include green infrastructure. There are some communities that 
have gone to TIGER grants from the DOT to get that money. So it 
is really about putting together the pieces, what is it that a 
community wants to do, can it be funded through DOT, through 
HUD, through EPA? USDA has an urban forestry program. So that 
is what we are trying to help people do, is identify as the 
resources are shrinking, what are the pots of money available 
to help them do what they need to do.
    Ms. Edwards. Well, I appreciate that, because these are 
incredibly popular, and even with the technical assistance it 
provides a little bit of resource to help communities 
understand what they have the capacity to do and then to do 
even the little things that can make a huge difference in a 
watershed.
    I introduced, and, of course, you know this because you 
helped me work on it before you came to the EPA, H.R. 2030, 
which is the Green Water Infrastructure Act, and among other 
things it would establish three to five centers of excellence 
for green infrastructure, these would be located throughout the 
United States, on the theory that we have to do some of this 
stuff regionally, that we can't think about one-size-fits-all 
approach when it comes to green infrastructure because regions 
are simply different.
    You have recognized the need for establishing best 
practices for water infrastructure, green water infrastructure. 
Can you tell us what practices are emerging and how you have 
been able to communicate that with stakeholders?
    Ms. Stoner. Sure. I think there are increasing practices 
that are finding out how to harvest that rainwater. For 
example, putting the stormwater back in the ground where it can 
replenish groundwater and subsurface flows. That is one of the 
things I am seeing a lot of development in. We can continue to 
see development in green roofs and blue roofs. We certainly 
continue to see development in terms of methods for addressing 
stormwater runoff from transportation, including storage under 
streets, under roads.
    So there is a lot of innovation that is occurring. There is 
a lot of new businesses developing around these innovations. 
And, as I believe George Hawkins said, these are also jobs. 
People can build this and maintain it. Those are local jobs 
that we can create through those efforts.
    Ms. Edwards. One of the things that occurs to me is that 
with the green infrastructure practices, in our earlier panel, 
we heard a couple of allusions to, or skepticism expressed 
about whether overall it would actually save money.
    Do we have any more empirical data or are there things that 
we can investigate to look at this question? Because I think, 
particularly for the larger municipalities where we really need 
a lot of work, for them to be able to adopt these practices, 
there has got to be a real benefit in the cost. So how do you 
track that?
    Ms. Stoner. We are doing a lot of work to look at the cost 
and the benefits. So the benefits are multimedia benefits. So 
it is pretty complicated to look at them. But we are looking at 
things like air pollution reduction, urban heat island 
reduction, as well as water quality, flooding reduction, 
enhanced water resources and so forth.
    But we are also looking at the cost. And I do think that 
green infrastructure can compare favorably from a cost 
standpoint with a lot of traditional approaches, particularly 
as you get to what is called the knee of the curve.
    So as you move out on, for example, on the reductions in 
combined sewer overflows or sanitary sewer overflows per 
gallon, as again George Hawkins was talking about, you can get 
more expensive costs out on the end of the curve. And green 
infrastructure can help a lot with respect to being cost 
favorable with respect to those additional reductions at the 
end of the curve.
    Ms. Edwards. I will submit another question for the record 
that goes to how you deal with issues around good faith efforts 
by local communities in the consent process, because that was 
an issue that came up earlier, and I think it is important to 
have EPA's perspective about how it looks at that in the 
permitting process.
    Thank you, Mr. Chairman.
    Mr. Gibbs. We are going to wrap up. I appreciate you all 
being here and listening to the first panel. I hope that, I am 
sure you did, from the first panel catch their passion and 
their dedication. And we are all committed to reach a goal of 
cleaner water, but the challenges and demands that these local 
communities go through and the expenses. Hopefully you heard 
the message of flexibility, the affordability issue and the 
challenges that they have, and we look forward to working with 
you in the future as we implement the integral plans.
    So thanks for being here, and this concludes this hearing.
    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]

</pre></body></html>
